<html>
<title> - SECURING PUBLIC AREAS OF TRANSPORTATION SYSTEMS: STAKEHOLDER PERSPECTIVES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








     SECURING PUBLIC AREAS OF TRANSPORTATION SYSTEMS: STAKEHOLDER 
                              PERSPECTIVES

=======================================================================

                             FIELD HEARING

                               before the

                            SUBCOMMITTEE ON
                           TRANSPORTATION AND
                          PROTECTIVE SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 28, 2017

                               __________

                           Serial No. 115-40

                               __________

       Printed for the use of the Committee on Homeland Security




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                                     

        Available via the World Wide Web: http://www.govinfo.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-473 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






























                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Lou Barletta, Pennsylvania           William R. Keating, Massachusetts
Scott Perry, Pennsylvania            Donald M. Payne, Jr., New Jersey
John Katko, New York                 Filemon Vela, Texas
Will Hurd, Texas                     Bonnie Watson Coleman, New Jersey
Martha McSally, Arizona              Kathleen M. Rice, New York
John Ratcliffe, Texas                J. Luis Correa, California
Daniel M. Donovan, Jr., New York     Val Butler Demings, Florida
Mike Gallagher, Wisconsin            Nanette Diaz Barragan, California
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Vacancy
                   Brendan P. Shields, Staff Director
               Steven S. Giaier,  Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

         SUBCOMMITTEE ON TRANSPORTATION AND PROTECTIVE SECURITY

                     John Katko, New York, Chairman
Mike Rogers, Alabama                 Bonnie Watson Coleman, New Jersey
Clay Higgins, Louisiana              William R. Keating, Massachusetts
Brian K. Fitzpatrick, Pennsylvania   Donald M. Payne, Jr., New Jersey
Ron Estes, Kansas                    Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Krista P. Harvey, Subcommittee Staff Director
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  and Protective Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Transportation and Protective Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Mr. Charles Cunningham, Director, Homeland Security and Emergency 
  Management, Delaware River Port Authority (DRPA) Public Safety/
  PATCO:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Thomas J. Nestel, III, Chief, Transit Police, Southeastern 
  Pennsylvania Transportation Authority (SEPTA):
  Oral Statement.................................................    11
  Prepared Statement.............................................    12
Mr. Douglas Lemanowicz, Lieutenant, Special Operations Section, 
  New Jersey State Police, State of New Jersey:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Mr. Christopher Trucillo, Chief, Transit Police, New Jersey 
  Transit:
  Oral Statement.................................................    19
  Prepared Statement.............................................    22

 
     SECURING PUBLIC AREAS OF TRANSPORTATION SYSTEMS: STAKEHOLDER 
                              PERSPECTIVES

                              ----------                              


                       Tuesday, November 28, 2017

             U.S. House of Representatives,
                Subcommittee on Transportation and 
                               Protective Security,
                            Committee on Homeland Security,
                                                       Trenton, NJ.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
the City Counsel Chambers, Second floor, Trenton City Hall, 319 
E. State Street, Trenton, New Jersey, 08608, Hon. John Katko 
(Chairman of the subcommittee) presiding.
    Present: Representatives Katko, Watson Coleman, and 
Fitzpatrick.
    Mr. Katko. The Committee on Homeland Security, Subcommittee 
on Transportation and Protective Security will come to order.
    The subcommittee is meeting today to examine the existing 
security measures that safeguard surface transportation systems 
and identify ways that the Federal Government can help State 
and local transit agencies protect their enormous ridership.
    I would like to thank the city of Trenton and the City 
Council for allowing us to have this very important hearing in 
these beautiful historic chambers.
    This is an official Congressional hearing, and as such, we 
must abide by the rules of the Committee on Homeland Security 
and the House of Representatives. I kindly wish to remind the 
guests today that demonstrations from the audience, including 
applause and verbal outbursts, as well as any use of signs or 
placards are a violation of House rules. It is important that 
we respect the decorum and the rules of this committee. I have 
also been requested to state that photography and cameras are 
limited to access by accredited press only.
    I now recognize myself for an opening statement.
    I am very pleased to be joined today by two hometowners 
here, or close to being hometowners, Ranking Member Bonnie 
Watson Coleman and Congressman Fitzpatrick, to discuss a topic 
that is vital to the safety and economic vitality of the 
northeast region and the greater United States.
    I applaud the Ranking Member for her hard work and 
dedication to homeland security, and it is an honor to be here 
today in your district to hear directly from both you and 
Congressman Fitzpatrick's constituents on how to better secure 
the transit systems.
    Mass transit is critical to the livelihood of many 
Americans and provides an integral backbone to this economy. 
Recent terror attacks like the one in Brussels that targeted an 
international airport and a metro station have made us more 
cognizant than ever of the vulnerabilities in our 
transportation systems.
    Service transportation systems are a very attractive target 
due to their large volume of daily ridership and open 
infrastructure. Mass transit systems face unique challenges in 
screening passengers, closing resource gaps, and targeting 
assistance from the Department of Homeland Security. To put 
this into context, surface transportation modes serve over 10 
billion riders annually compared to an average of 800 million 
U.S. aviation passengers a year. More than 12 times the number 
of people that fly take part in mass transit other than flying, 
and it is our duty to ensure that local stakeholders and law 
enforcement have the resources they need to keep their riders 
and their systems safe.
    The purpose of today's hearing is to assess our ability and 
readiness to detect and disrupt threats to our Nation's 
critical surface transportation systems. I look forward to 
hearing from our witnesses about the current threat landscape, 
as well as the effectiveness of established security measures.
    Surface transportation systems are largely owned and 
operated by State and local entities, further complicating the 
Department of Homeland Security's responsibility as a primary 
Federal agency responsible for securing the numerous and 
diverse modes of transit. These systems are difficult to secure 
due to their open infrastructure, multiple access points, hubs 
serving multiple carriers, and in some cases lack of access 
barriers.
    Additionally, considering the significant volume of daily 
ridership via surface transportation modes, delays, or system 
shutdowns in response to threats can cripple the local economy. 
The multi-layered security approach at airports, including 
advance passenger screening, metal detectors, X-ray machines, 
and advance imaging technology, explosives detection K-9s, and 
armed law enforcement personnel cannot be easily replicated in 
the surface transportation sector. The delays and costs 
associated with measures would undermine the affordability and 
expediency of mass transit. Easy accessibility and relative 
affordability are part of what makes mass transit and rail 
transportation so popular among the American public and help 
keep our local, regional, and National economies humming.
    However, these benefits can also be exploited by terrorists 
as inherent vulnerabilities in surface transportation. Because 
of the difficulties associated with security screening people 
and goods on a train, metro, or bus, intelligence-sharing 
deterrence and detection measures as well as modern technology 
are extremely important.
    The security of a transit environment that spans multiple 
geographic jurisdictions and that integrates multiple law 
enforcement agencies depends upon seamless interagency 
coordination. All of you were invited here today because you 
are on the front lines, and your first-hand knowledge and 
expertise is going to be invaluable to us.
    I look forward to hearing from all of you about how the 
Federal Government can better coordinate with State and local 
surface transportation partners and law enforcement personnel 
to protect our traveling public, despite the fact that I 
understand that some of you are Philadelphia Eagles fans and I 
am a New York Giants fan, but we will have to deal with that as 
we move forward.
    I now recognize the Ranking Member Mrs. Watson Coleman for 
her opening statement.
    [The statement of Chairman Katko follows:]
                    Statement of Chairman John Katko
                           November 28, 2017
    Before I begin I would first like to thank the city of Trenton for 
graciously hosting us today. I am pleased to be joined by Ranking 
Member Bonnie Watson Coleman and Congressman Brian Fitzpatrick to 
discuss a topic that is vital to the safety and economic vitality of 
the Northeast region and the greater United States. I applaud the 
Ranking Member for her hard work and dedication to homeland security 
and it is an honor to be here today in your district to hear directly 
from both your and Congressman Fitzpatrick's constituents on how to 
better secure transit systems.
    Mass transit is critical to the livelihood of many Americans and 
provides an integral backbone to the economy of the region. Recent 
terror attacks like the one in Brussels that targeted an international 
airport and a metro station, have made us more cognizant than ever of 
the vulnerabilities in our transportation systems. Surface 
transportation systems are a very attractive target due to their large 
volume of daily ridership and open infrastructure. Mass transit systems 
face unique challenges in screening passengers, closing resource gaps, 
and targeting assistance from the Department of Homeland Security.
    To put this into context, surface transportation modes serve over 
10 billion riders annually compared to an average of 800 million U.S. 
aviation passengers per year, and it is our duty to ensure that local 
stakeholders and law enforcement have the resources they need to keep 
their riders and their systems safe.
    The purpose of today's hearing is to assess our ability and 
readiness to detect and disrupt threats to our Nation's critical 
surface transportation systems. I look forward to hearing from our 
witnesses about the current threat landscape, as well as the 
effectiveness of established security measures. Surface transportation 
systems are largely owned and operated by State and local entities, 
complicating the Department of Homeland Security's responsibility as 
the primary Federal agency responsible for securing the numerous and 
diverse modes of transit. These systems are difficult to secure due to 
their open infrastructure, multiple access points, hubs serving 
multiple carriers, and in some cases, lack of access barriers. 
Additionally, considering the significant volume of daily ridership via 
surface transportation modes, delays, or system shutdowns in response 
to threats can cripple the local economy. The multi-layer security 
approach at airports, including advance passenger screening, metal 
detectors, X-ray machines, advanced imagining technology, explosive 
detection canines, and armed law enforcement personnel, cannot be 
easily replicated in the surface transportation sector. The delays and 
costs associated with such measures would undermine the affordability 
and expediency of mass transit.
    Easy accessibility and relative affordability are part of what 
makes mass transit and rail transportation so popular among the 
American public and help keep our local, regional, and National 
economies humming. However, these benefits can also be exploited by 
terrorists as inherent vulnerabilities in surface transportation. 
Because of the difficulties associated with security screening people 
and goods on a train, metro, or bus, intelligence-sharing deterrence 
and detection measures are extremely important. The security of a 
transit environment that spans multiple geographic jurisdictions and 
that integrates multiple law enforcement agencies depends upon seamless 
interagency coordination. All of you were invited here today because 
you are on the front lines, and your first-hand knowledge and expertise 
is invaluable. I look forward to hearing from all of you about how the 
Federal Government can better coordinate with State and local surface 
transportation partners and law enforcement personnel to protect the 
traveling public.

    Mrs. Watson Coleman. Good morning. I would like to thank 
Chairman Katko for agreeing to hold this hearing today in the 
capital city of New Jersey: Trenton, New Jersey.
    I would also like to thank Mr. Fitzpatrick for traveling to 
my district to join us as we seek to better understand how the 
Federal Government can partner more effectively and make our 
surface transportation and public areas more secure.
    Before I turn to the subject at hand, I would like to 
extend a special thank you to our hosts here at City Hall, who 
went the extra mile to help ensure that we have a successful 
hearing, and I particularly would like to acknowledge the 
president of our City Council, Mr. Zachary Chester, for being 
here this morning. Thank you.
    The 12th Congressional District of New Jersey in which we 
sit today is connected by a complex web of transit systems. 
Every day thousands of passengers pass through my district on 
New Jersey Transit, SEPTA, and Amtrak trains. The safe and 
secure operation of transit systems is essential to the social 
and economic well-being of the people I serve. Their ability to 
travel safely depends upon the security efforts of today's 
panelists, who face a daunting task. Terrorists have targeted 
soft targets, such as subways, mass transit stations, and 
public airport areas in the United States and abroad.
    Last year just up the road in Elizabethtown, five pipe 
bombs were found near a transit station, and one exploded as 
police were attempting to disarm it. Thankfully there were no 
injuries, but the need to protect against threats to these 
systems is very clear. The emergence of a class of would-be 
terrorists who with little to no training, financial support, 
or direction carry out crimes of opportunity against innocent 
people demands greater vigilance and collaboration at all 
levels of government.
    Securing these critical transportation systems requires a 
layered, risk-based, well-resourced approach. Unfortunately, 
the budget that the president has proposed for fiscal year 2018 
goes in the opposite direction and calls for draconian cuts to 
almost every relevant Federal program. Last year the president 
of the American Public Transit Association testified before a 
Senate subcommittee that transit agencies across the United 
States had identified $6 billion in capital and operational 
security needs, yet the President wants to cut the Transit 
Security Grant Program, the primary source of Federal security 
funds for most transit agencies from $88 billion to just $48 
billion.
    He also was proposing significant cuts to the TSA's Visible 
Intermodal Prevention and Response Program, also known as VIPR. 
Under this program TSA officials, Federal air marshals, and K-9 
teams partner together with transit police and other local law 
enforcement to carry out security operations within surface 
transportation systems and public airport areas. Under the 
President's budget the number of VIPR teams would drop from 31 
teams to 8.
    Finally, the President is proposing a complete elimination 
of the Law Enforcement Officer Reimbursement Program. Under 
this critical program local law enforcement agencies receive 
partial Federal reimbursement for deploying officers at 
airports. In 2017 the program was funded at $44 million. The 
cuts that the President is seeking would come at the cost of 
the security of transportation systems in the 12th 
Congressional District and across this country.
    Later today when we return to Washington I will be 
introducing a bill to push back against these reckless cuts. My 
legislation known as the Surface Transportation and Public Area 
Security Act of 2017 seeks to not only secure, revamp, and 
resource important programs aimed at securing critical soft 
targets, but also greatly enhances Federal partnerships with 
Federal, State, and local stakeholders to protect those vital 
systems and the people who use them.
    In addition to authorizing $400 million for the Transit 
Security Grant Program, directing TSA to maintain 60 VIPR teams 
and restoring funding for Law Enforcement Officer Reimbursement 
Programs, my bill would also make law enforcement reimbursement 
available for surface transportation, increase the deployment 
of explosive detection K-9s to surface transportation, require 
a review of whether it is appropriate for people to be able to 
carry guns into public transportation areas, and direct the 
dissemination of best practices for securing against vehicle-
based attacks such as the attack we witnessed recently in New 
York. A bill focusing on securing these aspects of our 
transportation system is long past due. Today's hearing is a 
great opportunity to start a meaningful conversation about how 
we can work together to make these systems more secure.
    So I look forward to hearing from our witnesses about their 
security needs and how we can be helpful. Again, I thank my 
colleagues for joining me here today in Trenton and hope for a 
productive discussion today.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    [The statement of Ranking Member Watson Coleman follows:]
           Statement of Ranking Member Bonnie Watson Coleman
                           November 28, 2017
    The 12th Congressional District of New Jersey, in which we sit 
today, is connected by a complex web of transit systems. Every day, 
thousands of passengers pass through my district on NJ Transit, SEPTA, 
and Amtrak trains.
    The safe and secure operation of transit systems is essential to 
the social and economic well-being of the people I serve. Their ability 
to travel safely depends upon the security efforts of today's 
panelists, who face a daunting task.
    Terrorists have targeted soft targets such as subways, mass transit 
stations, and public airport areas in the United States and abroad. 
Last year, just up the road in Elizabethtown, five pipe bombs were 
found near a transit station, and one exploded as police were 
attempting to disarm it. Thankfully, there were no injuries, but the 
need to protect against threats to these systems is clear.
    The emergence of a class of would-be terrorists who, with little to 
no training, financial support, or direction carry out ``crimes of 
opportunity'' against innocent people demands greater vigilance and 
collaboration at all levels of government.
    Securing these critical transportation systems requires a layered, 
risk-based, well-resourced approach.
    Unfortunately, the budget that President Trump proposed for fiscal 
year 2018 goes in the opposite direction and calls for draconian cuts 
to almost every relevant Federal program.
    Last year, the president of the American Public Transit Association 
testified before a Senate subcommittee that transit agencies across the 
United States had identified $6 billion in capital and operational 
security needs.
    Yet, President Trump wants to cut the Transit Security Grant 
Program--the primary source of Federal security funds for most transit 
agencies--from $88 million to just $48 million. He also is proposing 
significant cuts to TSA's Visible Intermodal Prevention and Response 
(VIPR) program.
    Under this program, TSA officers, Federal Air Marshals, and canine 
teams partner with transit police and other local law enforcement to 
carry out security operations within surface transportation systems and 
public airport areas.
    Under President Trump's budget, the number of VIPR teams would drop 
from 31 teams to just 8. Finally, President Trump is proposing a 
complete elimination of the Law Enforcement Officer Reimbursement 
Program.
    Under this critical program, local law enforcement agencies receive 
partial Federal reimbursement for deploying officers at airports. In 
2017, the program was funded at $44 million.
    The cuts that President Trump is seeking would come at the cost of 
the security of transportation systems in the 12th Congressional 
District and across the country.
    Later today, when we return to Washington, I will be introducing a 
bill to push back against these reckless cuts. My legislation, the 
Surface Transportation and Public Area Security Act of 2017, seeks to 
not only restore, revamp, and resource important programs aimed at 
securing critical soft targets, but also greatly enhance Federal 
partnership with State and local stakeholders to protect these vital 
systems and the people who use them.
    In addition to authorizing $400 million for the Transit Security 
Grant Program, directing TSA to maintain 60 VIPR teams, and restoring 
funding for the Law Enforcement Officer Reimbursement Program, my bill 
would:
  <bullet> Make law enforcement reimbursement available for surface 
        transportation;
  <bullet> Increase the deployment of explosive detection canines to 
        surface transportation;
  <bullet> Require a review of whether it is appropriate for people to 
        be able to carry guns into public transportation areas; and
  <bullet> Direct the dissemination of best practices for securing 
        against vehicle-based attacks, such as the attack we witnessed 
        recently in New York.
    A bill focused on securing these aspects of our transportation 
systems is long past due. Today's hearing is a great opportunity to 
start a meaningful conversation about how we can work together to make 
these systems more secure.

    Mr. Katko. Thank you, Mrs. Watson Coleman. Other Members of 
the committee are reminded that opening statements may be 
submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           November 28, 2017
    I would like to thank the Chairman and Ranking Member for holding 
today's hearing.
    I want to thank our witnesses for appearing today. We know that 
your testimony today will provide the committee with insight as we 
focus our efforts on addressing surface transportation security.
    Immediately following the September 11, 2001 attacks, resources 
were rightfully focused on building a Federal agency to protect the 
aviation sector.
    However, in the 16 years since the attacks, the threat to surface 
transportation has steadily increased.
    Both Nationally and internationally, we have seen terrorists target 
surface transportation systems.
    The 2004 commuter train attacks in Madrid, 2005 London tube 
bombings, 2015 Paris train attack, and 2016 metro station attacks in 
Brussels underscore that bustling surface transportation hubs are 
attractive terrorist targets.
    Similarly, the surface transportation terrorist incidents 
domestically are trending upward as well.
    For example, in 2008, an individual was arrested for sharing 
details of the Long Island Railroad with al-Qaeda in an effort to help 
bomb New York City's Penn Station.
    In September 2009, three individuals were arrested for planning to 
detonate backpack bombs at Grand Central Station and Times Square.
    In 2016, police successfully detected and removed pipe bombs at a 
New Jersey train station.
    And, just last month, a terrorist mowed down 19 pedestrians on a 
bike path in Lower Manhattan.
    That ISIL-inspired attack resulted in the deaths of 8 people.
    The Federal Government must do more to help State and local 
stakeholders make surface transportation systems more secure.
    With each passing terrorist attack on surface transportation, our 
enemies grow more emboldened to commit these heinous acts.
    Today's hearing provides the opportunity for an honest discussion 
about how the Federal Government can be a better partner with key 
stakeholders, like the ones represented by today's witnesses, to raise 
the bar with respect to protecting at-risk surface transportation 
systems.
    Certainly, action on the legislation that Representative Watson 
Coleman, a leader on transportation security matters on the committee, 
will be introducing later today--the ``Surface Transportation and 
Public Area Security Act of 2017''--would be a major step forward in 
putting the Federal Government on a path to making these systems, which 
are essential to our Nation's economy, more secure.
    To the witnesses and those in the audience, I hope you will see 
today's hearing as a starting point for engaging with the committee on 
surface transportation security and continue to have an open dialog 
with the committee.

    Mr. Katko. We are pleased to have a group of distinguished 
witnesses before us today to speak on this timely and important 
topic. Let me remind the witnesses that their entire written 
statements will appear in the record.
    Our first witness is Mr. Charles Cunningham, the director 
of homeland security and emergency management for the Delaware 
River Port Authority. Mr. Cunningham previously served in the 
Federal Bureau of Investigation--I was a Federal organized 
crime prosecution for 20 years, so I like you guys--and more 
recently was a national account regional manager at Allied 
Universal. The Chair now recognizes Mr. Cunningham to testify 
for 5 minutes.

 STATEMENT OF CHARLES CUNNINGHAM, DIRECTOR, HOMELAND SECURITY 
AND EMERGENCY MANAGEMENT, DELAWARE RIVER PORT AUTHORITY (DRPA) 
                      PUBLIC SAFETY/PATCO

    Mr. Cunningham. Thank you, sir.
    Good morning, Chairman Katko, Ranking Member Watson 
Coleman, and Congressman Fitzpatrick. Thank you for inviting me 
to discuss security at PATCO and Delaware River Port Authority. 
Joining me today is William Shanahan, director of government 
relations and grant administration at the Delaware River Port 
Authority and chair of the Philadelphia Area Regional Transit 
Security Working Group, PARTSWG.
    Before joining the DRPA-PATCO in August 2017 as the 
director of homeland security and emergency management I served 
as a special agent in charge of the Richmond division of the 
FBI and was responsible for national security crisis response, 
counterterrorism investigations, threats throughout the State 
of Virginia. I oversaw and directed the Virginia Joint 
Terrorism Task Force as well as counterintelligence matters.
    During my 22-year career in the FBI I also served as a 
chief of organized crime and chief of violent crime for the 
bureau. Before joining the FBI I served as a police officer in 
Montgomery County, in Pennsylvania and 4\1/2\ years as 
Pennsylvania State trooper. I am proud to have served honorably 
in the United States Air Force.
    I am responsible for the physical security of the DRPA 
PATCO assets. This includes four major river crossings, one 
bridge, the Benjamin Franklin is designated as a top transit 
asset that connects Philadelphia and South Jersey regions, as 
well as the PATCO line. The hallmark of protecting our 100-
square-mile territory is collaboration. We work closely with 
numerous other police departments and municipalities to ensure 
that capital investments are consistent with current security 
and homeland security strategies.
    The DRPA and PATCO police departments were unified in 
recent years. The department has 150 sworn officers and two K-9 
teams. Previously when funds were available we had 
strategically and successfully deployed VIPR units, or Visual 
Intermodal Prevention and Response teams on the PATCO line and 
stations. Currently we routinely parole the entire PATCO rail 
transit settlement.
    Through our regional transit security working groups, 
PARTSWG, we have developed a robust public security awareness 
program with our award winning ``Look Up Speak Up'' campaign. 
This campaign engages the public through targeted advertising 
on both traditional and social media. Results are captured 
through the scientific polling by Zogby Analytics. The campaign 
teaches the riding public to observe what doesn't appear to be 
routine.
    Look up and either text, call, or email information and 
speak up to train transit intelligence professionals for 
analysis. This is coupled with security awareness training for 
civilian front-line employees with the focus on education, 
educating individuals to be aware of suspicious activity and to 
report that behavior.
    One critical layer to our security is the structure on 
technological hardening of our infrastructure since 9/11. The 
DRPA-PATCO leadership has created a robust capital program, 
which is dedicated to enhancing our security posture by 
hardening our subway and transit rail systems communications 
and our bridges.
    Another layer of PATCO security strategy is communication 
and intelligence sharing. At the Federal level we have an 
excellent working relationship with our DHS partners, FEMA, and 
TSA. We meet regularly and continually exchange information 
with regional partners, and we maintain an outstanding level of 
collaboration to thwart potential attacks.
    We share intelligence with many law enforcement agencies on 
a daily basis through our PARTSWG group. DRPA-PATCO coordinates 
with the FBI Joint Terrorism Task Force, the FBI Cyber Crimes 
Unit, Delaware Valley Intelligence Center, the DVIC, the New 
Jersey Real-time Crime Center, and many others. We have 
benefited from over $60 million in direct and regional support 
of our security program from the Department of Homeland 
Security since 2005.
    This funding was essential in creating a true regional 
effort to detect, deter, protect, and mitigate the threat of 
terrorism against our regional transportation infrastructure. 
But this effort is far from complete. Physical hardening and 
regional asset integration must continue. Operational and 
sustainability efforts must continue. Investments in cameras, 
sensors, et cetera must be protected by continuing maintenance 
programs, and digital records must be managed and stored.
    We need to continue reaching out to the public. They are 
surely the force multiplier that we must continue to engage, 
and last but not least specialized intelligence for transit 
partners in the center of gravity of this effort.
    Stopping those would do our riders--would do riders harm 
before an incident is the best-case scenario.
    Unfortunately, the trend of shrinking National grant 
programs has limited our ability to move forward with our 
capital security mitigations. Since to 2005 the National 
program is less than half-funded. That means that projects that 
met all the criteria funding and were funded and executed 
several years ago are no longer eligible because the money is 
no longer there. We need to change that narrative and evaluate 
security projects based on their merits again, and not solely 
on whether there is enough funding to move forward.
    I am proud to be part of the proactive Homeland Security 
and Emergency Preparedness DRPA-PATCO team and help to protect 
the people who travel on our bridges and rail transit system, 
our employees, and the region in general. We have dedicated 
personnel who work extremely hard to ensure the safety of all 
of our stakeholders and the assets with which we are entrusted, 
and we look forward to continuing to work with you, our elected 
Representatives in the House.
    [The prepared statement of Mr. Cunningham follows:]
                Prepared Statement of Charles Cunningham
                           November 28, 2017
    Good Morning Chairmen Katko and King, Ranking Members Watson 
Coleman and Rice, and Members of the subcommittees. Thank you for 
inviting me to discuss security at PATCO and the Delaware River Port 
Authority. Joining me today is William C. Shanahan, director of 
government relations and grants administration at the Delaware River 
Port Authority, and chair of the Philadelphia Area Regional Transit 
Security Working Group (PARTSWG).
    Before joining the DRPA/PATCO in August 2017 as the director of 
homeland security and emergency management, I served as the special 
agent in charge of the Richmond division of the F.B.I., and was 
responsible for National security, crisis response, and 
counterterrorism investigations/threats throughout the State of 
Virginia. I oversaw and directed the Virginia Joint Terrorism Task 
Force as well as all counterintelligence matters. During my 22-year 
career in the F.B.I., I also served as the chief of organized crime and 
chief of violent crime for the Bureau. Before joining the F.B.I., I 
served as a police officer in Montgomery County, Pennsylvania, spent 
4\1/2\ years as a Pennsylvania State Trooper and I am proud to have 
served in the U.S. Air Force.
    In my present position, I am responsible for the physical security 
of the DRPA/PATCO assets. This includes 4 major river crossings (one 
bridge, the Benjamin Franklin Bridge is designated as a Top Transit 
Asset), that connect the Philadelphia and South Jersey regions, as well 
as the PATCO line. PATCO is the only transit rail system that connects 
New Jersey with downtown Philadelphia. I also coordinate DRPA/PATCO 
efforts with the Department of Homeland Security (DHS), Transportation 
Security Administration (TSA), the Federal Bureau of Investigation 
(FBI), the Pennsylvania and New Jersey National Guard, the New Jersey 
State Police (NJSP), the Pennsylvania State Police (PSP), the 
Philadelphia Police Department, and many other local jurisdictions. I 
oversee the Homeland Security and Emergency Management Department and 
work closely with the DRPA/PATCO Police Department. The DRPA/PATCO 
Police Department has jurisdiction in 2 States (New Jersey and 
Pennsylvania), 13 counties, and 12 municipalities. The 4 bridges and 
transit rail system covers approximately 100 square miles. I am 
responsible for the implementation and execution of an overarching 
security strategy that offers maximum protection to the public, DRPA/
PATCO employees, as well as the 4 bridges and the PATCO transit assets.
    Before I discuss security in more depth, I would like to set the 
stage with some basic facts about the DRPA river crossings and the 
PATCO rail transit line. Every year, we move more than 115 million 
vehicles and riders on our bridges and rail transit line. We are one of 
the few transit systems in the United States that operates 24 hours a 
day, 7 days a week, 365 days a year. If just one of our bridges fail, 
it would have an immediate, massive, and detrimental impact on the 
regional transportation infrastructure. In addition, the secondary and 
tertiary impact on commerce throughout the 6th largest Metropolitan 
Region in the country would be devastating. Just rebuilding our assets 
alone would cost billions of dollars.
    Protecting hundreds of thousands of people a day and multi-billion-
dollar assets is a huge task. I can tell you that the DRPA/PATCO 
priority is clear: Ensuring the safety and security of our customers, 
assets, and employees. This entails ensuring the regional economic 
well-being, protecting iconic assets for future generations and 
ensuring resilience and sustainability for the region. To protect them, 
the DRPA/PATCO employs a multi-layered security strategy to prevent, 
detect, deter, and mitigate the ever-evolving threat against the 
transportation sector. Portions of our strategies involve high-
visibility methods, like increased uniformed officer and K-9 patrols, 
and Public Security Awareness campaigns. Other methods are less 
visible, like structural hardening, advances in technology, 
intelligence analytics, and improved communications.
    The hallmark of protecting our 100-square-mile territory is 
collaboration. Let me explain. The DRPA/PATCO Police Department is 
responsible for patrolling the most heavily-used portion of our 
network, the Benjamin Franklin, Commodore Barry, Walt Whitman, and 
Betsy Ross bridges, as well as the PATCO rail transit system. We work 
closely with numerous other police departments and municipalities to 
ensure that capital investments are consistent with current security 
and homeland security strategies. Our agency has been involved with 
developing and employing both anti-terrorism and counter terrorism 
strategies and practices since 2001.
    The DRPA and PATCO police departments were unified in recent years 
and both assets are overseen by the chief of police. The department has 
remained consistent over the years at approximately 150 sworn officers 
that cover the 4 river crossings and the PATCO rail transit system. We 
currently have 2 K-9 teams that are available for use throughout the 
rail transit system, and we strategically deploy officers on trains and 
at the 14 PATCO stations in New Jersey and Pennsylvania. Previously, 
when funds were available, we had strategically and successfully 
deployed VIPR or Visual Intermodal Prevention and Response teams on the 
PATCO line and stations as well as the high density multi-
jurisdictional, multi-modal transit hubs. Currently, we routinely 
patrol the entire PATCO rail transit system.
    Through our regional transit security working group (PARTSWG) we 
have developed a robust Public Security Awareness Program with our 
award-winning ``Look up . . . Speak up'' campaign. This campaign 
engages the public through targeted advertising on both traditional and 
social media. Results are captured through scientific polling by Zogby 
Analytics. The campaign teaches the riding public to observe what 
doesn't appear to be routine, Look Up, and either text, call, or email 
information, and Speak Up, to trained, transit intelligence 
professionals for analysis. This is coupled with security awareness 
training for civilian front-line employees. Since 2008, the Homeland 
Security and Emergency Management Department has conducted 
``awareness'' training for 100% of new DRPA/PATCO employees. Using the 
general riding public and our front-line employees further augments our 
sworn police officers' efforts by encouraging vigilance, as well as 
educating individuals to be aware of suspicious activity and to report 
that behavior.
    Behind the scenes, one critical layer to our security is the 
structural and technological hardening of our infrastructure. Since 9/
11, the DRPA/PATCO leadership has created a robust capital program 
which is dedicated to enhancing our security posture by hardening our 
subway and transit rail system, communications, and our bridges. 
Critical stations and vulnerable areas have been identified and secured 
with a digital camera system and access control devices.
    Another layer of the PATCO security strategy is communication and 
intelligence sharing. At the Federal level, we have an excellent 
working relationship with our DHS partners, FEMA, and TSA. We attend 
regular meetings and conference calls, and continually exchange 
information with regional partners. When potential threats are 
identified, they are communicated immediately. National events are 
often held within our area of responsibility and this outstanding level 
of collaboration, allows the DRPA/PATCO, and its regional, State, and 
Federal partners to work in concert to thwart potential attacks.
    We share intelligence with many law enforcement agencies on a daily 
basis, through our PARTSWG group. We were selected to host the recent 
I-STEP exercise by TSA. DRPA/PATCO coordinates with the FBI's Joint 
Terrorism Task Force, the FBI Cyber Crimes Unit, the High-Intensity 
Drug Trafficking Area program, and the NJSP Counter Terrorism and 
Intelligence units, Delaware Valley Intelligence Center (DVIC), New 
Jersey Real-Time Crime Center.
    We've benefitted from over $60 million dollars in direct and 
regional support of our security program from the Department of 
Homeland Security (DHS) since 2005. This funding was essential in 
creating a true regional effort to detect, deter, protect, and mitigate 
the threat of terrorism against our regional transportation 
infrastructure. But this effort is far from complete. Physical 
hardening and regional asset integration must continue. Our systems are 
large and spread out and each facility must be prioritized and 
hardened. Operational and sustainability efforts must continue. 
Investments in cameras, sensors, etc. must be protected by continuing 
maintenance programs and digital records must be managed and stored. We 
need to continue reaching out to the public--they are surely the 
expediential force multiplier we must continue to engage. And last, but 
not least, specialized intelligence for transit partners is the center 
of gravity of this effort. Stopping those that would do our riders harm 
before an incident is the best-case scenario. Unfortunately, the trend 
of a shrinking National grant program has limited our ability to move 
forward with our capital security mitigations. Since 2005, the National 
program is less than half-funded. That means that projects that met all 
the criteria for funding, funded, and executed several years ago, are 
no longer eligible because the money is no longer there. We need to 
change this narrative and evaluate security projects based on their 
merits again, and not solely on whether there is enough funding to move 
forward.
    I am proud to be part of the proactive Homeland Security and 
Emergency Preparedness DRPA/PATCO team and help to protect the people 
who travel on our bridges and rail transit system, our employees and 
region in general. We have dedicated personnel who work extremely hard 
to ensure the safety of all of our stakeholders and the assets with 
which we are entrusted. We coordinate with our law enforcement 
colleagues and we look forward to continuing to work with you--our 
elected representatives in the House--to keep our customers safe and 
our system secure. Once again, thank you for inviting me to testify 
today. I'm happy to answer any questions you might have.

    Mr. Katko. Thank you, Mr. Cunningham, for your testimony. I 
now thank you for your service with the FBI and in your current 
position. We definitely appreciate you being here today.
    Our second witness is Thomas Nestel, who currently serves 
as the chief of transit police at the Southeastern Pennsylvania 
Transportation Authority. Previously Mr. Nestel was a chief of 
police for the Upper Moreland Township.
    The Chair now recognizes Mr. Nestel to testify for 5 
minutes.

  STATEMENT OF THOMAS J. NESTEL, III, CHIEF, TRANSIT POLICE, 
   SOUTHEASTERN PENNSYLVANIA TRANSPORTATION AUTHORITY (SEPTA)

    Mr. Nestel. Good morning, Chairman Katko, Congresswoman 
Watson Coleman, and Congressman Fitzpatrick. I count on the 
fact that the statement is part of the record, so I am not 
going to read you that statement. I would like to amend one 
section, and that is the paragraph regarding the special events 
that SEPTA has been responsible for providing service and add 
the upcoming Super Bowl Championship parade that we will be 
covering.
    Mr. Katko. It is nice to dream, Mr. Nestel. That is what I 
like to hear or should I say fantasize, one or the other----
    Mr. Nestel. I think that everybody that is coming here to 
address you today and each of you understands that technology 
is the greatest need in mass transit, and second to that is 
grant funding, so I am going to steer away from those two 
because I don't think that we can more strongly emphasize the 
fact that those two are necessary.
    I want to bring to your attention a couple of other issues. 
I am a fourth-generation police officer. I have been a police 
officer for 35 years. When I got up this morning I still love 
my job. I love being a police officer. I think that the folks 
that are out on the line and working in cities and States 
throughout our Nation are dedicated people who are challenged 
every day with making the public safe. I have officers that I 
admire greatly who keep our system safe with a million rides a 
day.
    I think that I have learned that presenting complaints is 
less memorable than presenting solutions, so I want to be 
remembered. I would like to give you some potential solutions 
to problems that I have recognized in my jurisdiction.
    The first is the need for resources. Everyone needs 
resources. I think that the VIPR program was a wonderful 
program for us because the Federal air marshals teamed up with 
our officers and patrolled high-volume areas during special 
events. I think that that can be expanded to a number of 
Federal agencies that work in Philadelphia, who could 
supplement our patrols during specific times of the day to 
provide a counterterrorism front. We have to address crime 
control every day. We look to our partners to help us with 
terrorism prevention. So that is the first.
    The second is communication. I know that every study that 
has been done and every investigation since 2001 says that 
interoperability and communication between agencies is very 
important. There are radios that we purchased that have the 
ability to speak in every county that we cover in Pennsylvania. 
That is five counties. Those radios are $8,000. The issue that 
we have run into is that jurisdictional blockades are presented 
in using those radios in some jurisdictions because they don't 
want other police agencies communicating on their band. I think 
that the FCC could probably become involved and encourage 
multijurisdictional areas to be able to communicate on the same 
band if the radios are available. SEPTA committed to purchasing 
several of those radios, so it wasn't even a grant function, 
and yet we can't use it in some places. That is important.
    The third issue is jurisdictional issues. Transit agencies 
have a unique jurisdictional challenge. During the Pope's visit 
a high-ranking police official from a jurisdiction showed up at 
a pre-planning meeting and read a letter saying that the 
Transit Police Authority ends at the sidewalk, and they do not 
possess police authority beyond that sidewalk. That is not the 
kind of jurisdictional assistance that needs to be had in 
policing and preventing terrorism. We need to have that ability 
for transit police to travel across State lines, to travel 
within county borders and to have the same police authority as 
the jurisdictions that are responsible for protecting that 
community.
    So those are three recommendations and three issues that I 
wanted to bring to your attention aside from the technology and 
grant funding issues. I am happy to answer any questions.
    [The prepared statement of Mr. Nestel follows:]
              Prepared Statement of Thomas J. Nestel, III
                           November 28, 2017
    Good morning Chairman Katko, Ranking Member Watson Coleman, 
Congressman Fitzpatrick, and the other Members of the Transportation 
and Protective Security Subcommittee. Thank you for holding this 
important hearing on securing public areas of transportation systems. 
On behalf of our board chairman Pasquale T. ``Pat'' Deon, Sr., general 
manager Jeffrey D. Knueppel, and the members of the SEPTA Transit 
Police Department, I am grateful for the opportunity to testify today 
about security at the Southeastern Pennsylvania Transportation 
Authority (SEPTA) and discuss our policing strategies, technology 
deployment, and inter-agency partnerships.
    My name is Thomas J. Nestel, III. I have served as the chief of the 
SEPTA Transit Police Department since August 2012. I began my career in 
law enforcement in 1982 as a patrol officer with the SEPTA Transit 
Police. I then served on the Philadelphia Police Department for 22 
years, attaining the rank of staff inspector, and later as the chief of 
police for Upper Moreland Township (Montgomery County, PA). I received 
a Bachelor's degree in Criminal Justice from Chestnut Hill College, a 
Master of Science in Public Safety from Saint Joseph's University, a 
Master of Arts in National Security Studies from the United States 
Naval Postgraduate School, and a Master of Science in Criminology from 
the University of Pennsylvania. I am currently completing a Doctorate 
in Criminology at the University of Pennsylvania.
    SEPTA is the sixth-largest public transportation system in the 
Nation, and the largest in the Commonwealth of Pennsylvania, serving 
more than 4 million people living across 2,200 square miles in the five 
counties of southeastern Pennsylvania (Bucks, Chester, Delaware, 
Montgomery, and Philadelphia). The SEPTA system is an expansive 
multimodal transit system, operating buses, subways, trolleys, Regional 
Rail (commuter rail), trackless trolleys, an interurban high-speed line 
and paratransit. Regional Rail service extends to Trenton and West 
Trenton, New Jersey and Wilmington and Newark, Delaware. The Authority 
maintains 230 active rail stations, over 450 miles of track, and more 
than 2,350 bus and rail revenue vehicles. In the fiscal year ending 
June 30, 2017, SEPTA provided more than 308 million unlinked passenger 
trips--an average of approximately 1 million trips each weekday--on 150 
fixed bus and rail routes.
    As chief of the SEPTA Transit Police Department, I have the honor 
of leading 270 sworn officers whose core mission--providing for the 
safety and security of SEPTA's 1 million daily customers, 9,400 
employees and the communities we serve--is guided by a commitment to 
service, integrity, and professionalism. Formed in 1981, the SEPTA 
Transit Police Department is now the fifth-largest police department in 
the Commonwealth of Pennsylvania. SEPTA Transit Police officers are 
commissioned by the Governor and exercise full police powers in the 
five-county area served by SEPTA, as well as New Jersey and Delaware. 
SEPTA most recently received the Transportation Security Administration 
(TSA) Gold Standard Award in 2016, scoring in the top 10 percent of 
transit agencies evaluated through TSA's Baseline Assessment for 
Security Enhancement (BASE) Program, a voluntary evaluation of 17 
security and emergency preparedness action items.
    The five southeastern Pennsylvania counties that make up the 
majority of the SEPTA service area are the engine of Pennsylvania's 
economy, generating 41 percent of the State's economic activity, with 
32 percent of its population on just 5 percent of its land. This degree 
of productivity would not be possible without safe, reliable, and 
accessible public transportation. That accessibility and openness--
hallmarks of what makes SEPTA, and all public transportation, such an 
important regional asset--are the very conditions that keep me up at 
night.
    SEPTA Transit Police officers work hard every day to respond to 
public safety matters and personal and property crimes while preparing 
for unknown and unthinkable threats. Protecting SEPTA's multi-modal and 
heavily-used transit system from terrorism is an immense 
responsibility. The urgency of which, I am pleased to say, is 
understood and shared by SEPTA leadership, SEPTA Transit Police, 
Federal, State, and local law enforcement partners, and our employees 
and customers.
    Uniformed police officers patrolling the SEPTA system are the most 
visible public face of our policing efforts, riding buses and rail 
vehicles, patrolling stations and providing a first response to any 
incident. Their vigilance and presence has helped reduce crime and make 
SEPTA safer.
    In addition to regular patrols, SEPTA's policing activities are 
augmented by Special Operations Units that assist in the day-to-day 
operations of the police department, concentrating law enforcement 
efforts on counterterrorism, training, and weapons of mass destruction 
detection and prevention. SEPTA special operators serve in a variety of 
units:
  <bullet> The members of SEPTA's Special Operations Response Team 
        (SORT) Unit have received specialized training to handle 
        situations such as armed hijacking, hostage situations, 
        chemical, biological, radiological, nuclear (CBRN) and tactical 
        response. The SORT unit is comprised of 12 officers, 2 
        sergeants, and 1 lieutenant.
  <bullet> SEPTA's Canine (K-9) Unit currently has 14 specially-trained 
        bomb-sniffing dogs (4 TSA-certified), who are deployed along 
        with an officer to the daily unattended bag reports. These 
        rapid response teams are the foundation to swiftly evaluate the 
        threat of an unattended bag.
  <bullet> The Tactical Unit teams of uniform, canine, and plainclothes 
        officers are specifically deployed during peak travel hours to 
        address crime patterns and quality of life issues throughout 
        the transportation system.
  <bullet> The Transit Police Department's Criminal Investigations 
        Section (CIS) investigates crimes committed on SEPTA property. 
        The CIS works with many local, State, and Federal law 
        enforcement departments and has a detective assigned to a 
        regional FBI Multi-Agency joint Terrorism Task Force.
    While well-trained and properly-equipped police personnel are both 
the first and last line of defense, technology is an indispensable part 
of SEPTA's security and counterterrorism efforts. It expands the reach 
of law enforcement to every corner of our service territory, it enables 
and maximizes the effectiveness of inter-agency coordination and 
communication, and it puts critical information into the hands of 
officers patrolling our vehicles and stations.
    Closed circuit television (CCTV) cameras are a critical component 
of SEPTA's policing strategy, with approximately 27,300 fixed and 
mobile cameras deployed throughout the system. Cameras in stations can 
be viewed live, allowing SEPTA police and operations personnel in 
SEPTA's Control Center to monitor activities and incidents in real 
time. These virtual patrols allow Transit Police officers to provide 
greater coverage and deliver valuable information to responding 
officers. Camera footage on vehicles can be downloaded at the scene of 
an incident and this information has aided SEPTA and Philadelphia 
Police in the apprehension of suspects and securing convictions.
    SEPTA took the lead in developing interoperable communications with 
the hundreds of law enforcement and public safety departments in the 
communities SEPTA serves. SEPTA developed a radio interoperability 
system (RIOS) that allows dissimilar communications systems to 
communicate during major incidents when more than one agency responds 
to more than one scene. Additionally, because so much of SEPTA's 
transit infrastructure in the city of Philadelphia is underground, 
SEPTA is investing approximately $25 million to replace 40-year-old 
radiax cable in the Market-Frankford Subway and Broad Street Subway, 
and procure new radio equipment for the Market Street, Trolley, and 
Regional Rail tunnels. This will upgrade SEPTA's subsurface 
communications, and will enable Philadelphia police, fire, and 
emergency medical services that operate on a different bandwidth from 
SEPTA, to communicate both above and below ground.
    Earlier this year, SEPTA partnered with a ELERTS Corp. to release 
SEPTA Transit Watch, a mobile app that empowers SEPTA customers to 
discreetly report security or safety issues directly to SEPTA Transit 
Police in a matter of seconds. The National ``If You See Something, Say 
Something'' campaign has taught us that our customers play a vital role 
in helping secure the transit system as well as their fellow riders, 
and the Transit Watch App is a way for them to communicate with SEPTA 
Transit Police and provide real-time information that can make a 
critical difference to responding personnel.
    In partnership with Amtrak, New Jersey Transit and PATCO, SEPTA is 
an active participant in the regional ``Look up. Speak Up'' transit 
security campaign. Upon being named General Manager in 2015, Jeff 
Knueppel renewed and strengthened the Authority's commitment to safety 
and security--making safety the foundation of everything we do. Through 
the annual ``Make the Safe Choice'' safety awareness day and monthly 
safety blitzes, SEPTA provides customers with information and resources 
to be safe and observant riders and remind them of the key role they 
have in helping keep their fellow customers safe.
    Similarly, SEPTA holds two annual ``Never too Busy for Safety'' 
employee safety days for managers and direct reports to discuss safety 
protocols and concerns. SEPTA employees, along with our customers, are 
the eyes and ears of the system, last year, our entire workforce 
received training on anti-terrorism and security awareness to help 
identify suspicious incidents or individuals and how to properly report 
them. This year, SEPTA employees received video instruction on what to 
do in the event of an active-shooter situation. Because SEPTA regularly 
and proactively engages its customers and employees on matters of 
safety and security, and not just when issues arise, SEPTA has 
credibility when reaching out to customers to ``Look up. Speak up'' or 
``See Something, Say Something.''
    Securing public areas of transportation systems against terrorism 
and mass casualty incidents requires regional, inter-agency 
collaboration, training and information sharing. Federal, State, and 
local law enforcement coordination proved vital over the past several 
years as the Greater Philadelphia region hosted major National and 
international events, including the 2013 United States Open, the 2015 
Papal Visit, the 2016 Democratic National Convention (DNC) and the 2017 
National Football League Draft (the Papal Visit and DNC were both 
National Special Security Events (NSSE) under the direction of the 
United States Secret Service).
    Preparedness and tactical assistance from the Department of 
Homeland Security, TSA, and FBI are also invaluable resources for local 
and regional coordination. Following National or international 
terrorism or mass casualty events, TSA shares information and threat 
assessments with transportation law enforcement officials that have 
helped SEPTA evaluate procedures and develop new responses and 
protocols. In response to a recent TSA Security Awareness Message 
regarding rail and track infrastructure, SEPTA responded by deploying 
aerial drones as a force multiplier in delivering security on our track 
network.
    However, it is the day-to-day intelligence and resource sharing 
that is such an effective law enforcement tool. In this region, we are 
fortunate to work effectively with the Philadelphia Police Department, 
the Philadelphia Fire Department, the Philadelphia Office of Emergency 
Management, the Pennsylvania State Police, county and local law 
enforcement, and our partners in public and rail transportation, 
including PATCO, NJ Transit, DART--members with SEPTA of the 
Philadelphia Area Regional Transit Security Working Group (PARTSWG)--
and Amtrak.
    SEPTA is a working partner in the Delaware Valley Intelligence 
Center (DVIC) initiative--the regional intelligence fusion center that 
integrates Federal, State, and local law enforcement agencies to 
facilitate information and resource sharing to enhance the region's 
ability to detect, prevent, and respond to emerging threats, terrorism, 
and other suspicious activities. SEPTA has an officer assigned to the 
DVIC and video feeds from SEPTA transit facilities are made available 
to DVIC personnel in real time.
    The Department of Homeland Security's Transit Security Grant 
Program (TSGP) is perhaps SEPTA's most effective Federal security 
partnership. The TSGP provides funds to operators of public 
transportation systems to protect critical surface transportation 
assets and the traveling public from acts of terrorism, and to increase 
the resilience of transit infrastructure. From this grant program, 
SEPTA has funded closed CCTV cameras on vehicles, multi-jurisdictional 
counterterrorism emergency simulation drills on various transit modes, 
directed SEPTA Transit Police Patrols in strategically-designated areas 
during periods of elevated alert using specially trained anti-terrorism 
teams, hazardous material identification kits for SORT operations, the 
purchase of explosive detection devices, intrusion detection and 
surveillance equipment, and bulletproof vests, upgraded mobile 
communications and Control Center monitoring equipment, installation of 
video surveillance cameras at transit facilities, RIOS implementation, 
and maintenance of a computer-aided dispatch and records management 
system (CAD/RMS) for the Philadelphia region. The grant has also funded 
SORT and K-9 patrol teams. However, as funding for the grant program 
has been significantly reduced in recent years, SEPTA has been severely 
limited in its ability to use TSGP funding for anything other than 
sustaining existing special operations teams.
    From fiscal year 2012 to 2017, SEPTA received $15.3 million in TSGP 
funding, including $3.8 million in fiscal year 2017. On average, SEPTA 
typically receives one-third of the TSGP funding that it applies for, 
and while these are 3-year grants, SEPTA generally expends its 
allotment during a single fiscal year. Like most Federal programs, 
demand for TSGP far outpaces available funding, and funding Nationally 
for TSGP has dropped by 75 percent since 2009. If not for SEPTA 
absorbing the cost, critical security and antiterrorism activities 
would go unfunded. SEPTA, and transit agencies across the Nation, are 
partners in securing their communities and preventing acts of 
terrorism. We need strong Federal support to ensure our efforts are 
effective, and I am grateful to the Members of this subcommittee for 
working to preserve the program and authorize increased funding for 
transit agencies to support this National priority.
    Thank you again for the opportunity to testify before the 
subcommittee on SEPTA's efforts to secure our system for our customers, 
employees, and the region. I look forward to answering any questions 
that you may have.

    Mr. Katko. That is amazing. It is almost 5 minutes exactly. 
Not bad. Thank you, Mr. Nestel, for your testimony. We 
appreciate you taking time to be here today.
    Normally I would continue introducing the witnesses, but 
Mrs. Watson Coleman I think would like to introduce the next 
two, and Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you. Thank you, Mr. Chairman. 
Our next witness is Mr. Douglas Lemanowicz. Did I slay that?
    Mr. Lemanowicz. No, ma'am.
    Mrs. Watson Coleman. Thank you so much. Mr. Lemanowicz is a 
member of the Fairleigh Dickinson University School Safety 
Board. He also helps to provide analysis of school violence and 
school shootings to Homeland Security personnel. He is a New 
Jersey State Trooper, and is currently assigned as a unit head 
for the urban search and rescue unit within the emergency 
management section.
    Prior assignments were on the technical emergency admission 
specialist unit with the NJSP Homeland Security branch and 
special operations section. Through his specialized training 
Mr. Lemanowicz has gained experience in special weapons and 
tactics, counterterrorism methods, weapons of mass destruction, 
crisis preparedness, and active shooters. We are delighted to 
have you here.
    Mr. Lemanowicz. Thank you.
    Mrs. Watson Coleman. We welcome your testimony.

STATEMENT OF DOUGLAS LEMANOWICZ, LIEUTENANT, SPECIAL OPERATIONS 
     SECTION, NEW JERSEY STATE POLICE, STATE OF NEW JERSEY

    Mr. Lemanowicz. Thank you for the opportunity. The New 
Jersey State Police is comprised of four primary branches: 
Administration, Investigations, Homeland Security, and 
Operations. Through these branches and other specialized 
offices the division maintains a network of information sharing 
and collaborative efforts to conduct effective operations. The 
members within these groups also maintain critical relations 
with outside agencies to promote abilities to counterterrorists 
and criminal activities and numerous critical infrastructure 
sectors and countless soft targets.
    Presidential Policy Directive 8 National Preparedness 
describes the Nation's approach to preparing for the threats 
and hazards that pose the greatest risks to the security of the 
United States. National preparedness is defined as the actions 
taken to plan, organize, equip, train, and exercise to build 
and sustain capabilities necessary to prevent, protect against, 
mitigate the effects of, respond to, and recover from those 
threats that pose the greatest risk to the Nation. Through the 
guidance of PPD-8 frameworks consideration must be given to 
enhancing and fortifying capabilities in preventing, detecting, 
and deterring the threats and attacks within the State of New 
Jersey.
    The threat of terrorism and the acts of violent crime has 
become too common in the United States. The New Jersey State 
Police assumes the great duty in defending the State against 
terrorist attacks and violent crimes. Preparedness is a shared 
responsibility and requires a whole community effort to promote 
safety and resilience through a common goal. It is vital that 
all partners build, organize, and enhance capabilities in a 
unified approach to be better prepared to counter all hazard 
threats in our communities.
    A mission within the division of the State Police is to 
develop innovative strategies and partnerships with public and 
private entities to prevent, interdict, protect, and respond to 
threats that target our State. Through communal target 
hardening and coordination protective measure consultation 
infrastructure and event vulnerability assessments, real-time 
data analysis and situational awareness tracking, interagency 
communication, and direct counterthreat operational deployments 
our goal is to thwart terror.
    The Office of Target Hardening was established in a special 
operations section in the Homeland Security branch in July 
2016. Their primary mission is to effectively implement and 
develop target hardening strategies to deter terrorist 
activities. This office works collaboratively with other 
specialized groups within the division, as well as with other 
Federal, State, county, and local mission partners. This is 
demonstrated in the monthly meeting at the Regional Operation 
Center known as the ROC where mission partner representatives 
assemble to discuss new intelligence, special events, current 
threats, lessons learned, best practices, and operational 
recommendations. These partners include but are not limited to 
the New Jersey State Police Threat Analysis and Critical 
Infrastructure Units, Joint Terrorism Task Force, Office of 
Homeland Security and Preparedness, the Federal Bureau of 
Investigations, Transportation Security Administration, New 
Jersey Office of Emergency Management, and the National 
Counterterrorism Center. The New Jersey State Police is--excuse 
me.
    These daily, weekly, and monthly discussions are our cycle 
of preparedness where we as a team of teams auto-adapt to the 
evolving threat through collaboration, information sharing, 
intelligence, prevention, awareness, and response. The Division 
of State Police deploys target-hardening missions regularly due 
to the shared network from our mission partners. The Office of 
Target Hardening organizes and directs New Jersey State Police 
units, which specialize in explosive and hazardous materials 
detection, suspicious activity detection and interception, 
counterassault tactics, maritime security, commercial motor 
vehicle and motor coach safety, aviation surveillance and 
insertion operations, and highway transportation systems 
resilience in two target areas. This office also deconflicts 
with other agencies and specialized units in order to conduct 
safe, coordinated prevention and protection-based operations.
    Today's threat of environment domestically and 
internationally is wrought with an ideology committed to the 
destruction of established Western culture. The world has seen 
a significant spike in foreign and domestic terrorist attacks 
resulting in death, destruction, intimidation, and fear. The 
United States is the ultimate prize for those seeking to strike 
a blow at our way of living. This ideology is evident in the 
rise of home-grown violent extremist attacks utilizing both 
complex and rudimentary means. As a State we witnessed and 
responded to these types of attacks during the September 2016 
New Jersey and New York bombings. The terrorist threats we face 
are only limited by the creativity and sense of purpose of 
those planning and executing them.
    In addition, law enforcement officers and military 
personnel have become a preferred target of those seeking to do 
harm. In order to be able to continue to detect, deter, 
prevent, and respond to terrorist and criminal activities our 
law enforcement must continue to develop its capabilities. 
Collaboration and information sharing are most vital pieces 
that need to be nurtured in order to sustain strong relations. 
Stakeholders need to be able to train, equip exercise 
personnel, as well as provide routine education to develop 
decision-making abilities. Our first preventers should be 
prepared with the institutional knowledge of the threats of 
practices in order to mitigate radicalization and 
immobilization phases before our men and women in blue 
encounter them as first responders.
    Counterterrorism and target-hardening operations need 
effective means of communications and plans that are 
interoperable and standardized. The State of New Jersey lacks 
digital technologies and personnel to support planning and 
operational phases and providing consistent real-time 
interagency communications during a multi-agency phase to an 
incident or an event. We collectively must continue to foster 
sustainable relationships, enable efficient information 
exchange, and implement an integration and analysis function to 
inform planning and operational decisions in order to protect 
our citizens and critical infrastructure in unified approach. 
Thank you.
    [The prepared statement of Mr. Lemanowicz follows:]
                Prepared Statement of Douglas Lemanowicz
                           November 28, 2017
    The New Jersey State Police (NJSP) is comprised of four primary 
branches: Administration, Investigations, Homeland Security, and 
Operations. Through these branches and other specialized offices, the 
division maintains a network of information sharing and collaborative 
efforts to conduct effective operations. The members within these 
groups also maintain critical relations with outside agencies to 
promote abilities to counter terrorist and criminal activities in 
numerous critical infrastructure sectors and countless soft targets.
    Presidential Policy Directive 8: National Preparedness (PPD-8) 
describes the Nation's approach to preparing for the threats and 
hazards that pose the greatest risk to the security of the United 
States. National preparedness is defined as the actions taken to plan, 
organize, equip, train, and exercise to build and sustain capabilities 
necessary to prevent, protect against, mitigate the effects of, respond 
to, and recover from those threats that pose the greatest risk to the 
Nation. Through the guidance of PPD-8 frameworks, consideration must be 
given to enhancing and fortifying capabilities in preventing, 
detecting, and deterring of threats and attacks within the State of New 
Jersey.
    The threat of terrorism and acts of violent crime has become too 
common in the United States. The New Jersey State Police assumes a 
great duty in defending the State against terrorist attacks and violent 
crimes. Preparedness is a shared responsibility and requires a whole-
community effort to promote safety and resilience through a common 
goal. It is vital that all partners build, organize, and enhance 
capabilities in a unified approach to be better prepared to counter 
all-hazards threats in our communities. A mission within the Division 
of State Police is to develop innovative strategies and partnerships 
with public and private entities to prevent, interdict, protect, and 
respond to threats that target our State. Through communal target-
hardening coordination, protective measure consultation, infrastructure 
and event vulnerability assessments, real-time data analysis and 
situational awareness tracking, interagency communication, and direct 
counter-threat operational deployments, our goal is to thwart terror.
    The Office of Target Hardening was established in the Special 
Operations Section within the Homeland Security Branch in July of 2016. 
Their primary mission is to effectively implement and develop target 
hardening strategies to deter terrorist activity. This office works 
collaboratively with other specialized groups within the division as 
well as with other Federal, State, county, and local mission partners. 
This is demonstrated in the monthly meeting at the Regional Operations 
Intelligence Center (ROIC) where mission partner representatives 
assemble to discuss new intelligence, special events, current threats, 
lessons learned, best practices, and operational recommendations. These 
partners include, but are not limited to: the NJSP Threat Analysis and 
Critical Infrastructure Units, Joint Terrorism Task Force, Office of 
Homeland Security and Preparedness, Federal Bureau of Investigations, 
Transportation Security Administration, New Jersey Office of Emergency 
Management, and National Counterterrorism Center.
    These daily-weekly-monthly discussions are our ``cycle of 
preparedness'' where we, as a team of teams, auto-adapt to the evolving 
threat through collaboration, information sharing, intelligence, 
prevention, awareness, and response. The Division of State Police 
deploys target-hardening missions regularly due to the shared network 
from mission partners. The Office of Target Hardening organizes and 
directs NJSP units, which specialize in explosive and hazardous 
materials detection, suspicious activity detection and interception, 
counter assault tactics, maritime security, commercial motor vehicle 
and motor coach safety, aviation surveillance and insertion operations, 
and highway transportation systems resiliency, into targeted areas. 
This office also deconflicts with other agencies and specialized units 
in order to conduct safe, coordinated prevention and protection-based 
operations.
    Today's threat environment domestically and internationally is 
wrought with an ideology committed to the destruction of established 
Western culture. The world has seen a significant spike in foreign and 
domestic terrorist attacks resulting in death, destruction, 
intimidation, and fear. The United States is the ``ultimate prize'' for 
those seeking to strike a blow to our way of living. This ideology is 
evident by the rise in Homegrown Violent Extremist (HVE) attacks, 
utilizing both complex and rudimentary means. As a State, we witnessed 
and responded to these type of attacks during the September 2016 New 
Jersey and New York Bombings. The terrorist threats we face are only 
limited by the creativity and sense of purpose of those planning and 
executing them. In addition, law enforcement officers and military 
personnel have become a preferred target for those seeking to do harm.
    In order to be able to continue to detect, deter, prevent, and 
respond to terrorist and criminal activities, our law enforcement must 
continue to develop its capabilities. Collaboration and information 
sharing are most vital pieces that need to be nurtured in order to 
sustain strong relations. Stakeholders need to be able to train, equip, 
and exercise personnel as well as provide routine education to develop 
decision-making abilities. Our ``first preventers'' should be prepared 
with the institutional knowledge of the threats and practices in order 
to mitigate radicalization and mobilization phases before our men and 
women in blue encounter them as ``first responders.'' Counterterrorism 
and target-hardening operations need effective means of communications 
and plans that are interoperable and standardized. The State of New 
Jersey lacks digital technologies and personnel to support planning and 
operational phases and in providing consistent real-time, interagency 
communications during a multi-agency response to an incident or event. 
We collectively must continue to foster sustainable relationships, 
enable efficient information exchange, and implement an integration and 
analysis function to inform planning and operational decisions in order 
to protect our citizens and critical infrastructure in a unified 
approach.

    Mr. Katko. Thank you, Mr. Lemanowicz, for your testimony. 
We appreciate you taking the time to be here today, and you 
definitely are thought-provoking like the others have testified 
before you. Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you very much for your 
testimony, and thank you for emphasizing the need to be 
collaborative and to interact because Mr. Katko and I are 
constantly talking about whether or not information is being 
shared in real time and best practices and things of that 
nature, so thank you.
    Our next witness is Mr. Trucillo, Mr. Christopher Trucillo. 
Mr. Trucillo was sworn in as the chief of New Jersey Transit 
Police Department on July 26, 2010. He began his law 
enforcement career in 1978 as a municipal police officer in 
Harrison, New Jersey. In 1986 he joined the Port Authority of 
New York and New Jersey Police Department where he rose to the 
ranks to become the chief of the department. Chief Trucillo was 
instrumental during the aftermath of September 11, 2001, 
transforming the transit police into an antiterror force.
    The Chair now recognizes Mr. Trucillo for his testimony, 
and thank you for being here today, sir.

 STATEMENT OF CHRISTOPHER TRUCILLO, CHIEF, TRANSIT POLICE, NEW 
                         JERSEY TRANSIT

    Mr. Trucillo. Thank you, Congresswoman. Good morning, Mr. 
Chairman and Members of the subcommittee. I welcome this 
opportunity to appear before you today and discuss the 
challenges of securing passengers utilizing surface 
transportation in New Jersey, New York, and this region.
    As the Congresswoman mentioned, before joining the Transit 
Police Department I served as the chief of the department for 
the Port Authority of New York and New Jersey, and while there 
I was the commanding officer of the the port authority bus 
terminal in Manhattan and Newark International Airport. As the 
chief of that department I was responsible for the busiest 
aviation system in our Nation, as well as the PATH system where 
at that time we moved 240,000 people a day between New York and 
New Jersey.
    Mr. Chairman, thank you again for inviting me. We 
appreciate the important role this committee has in matters 
related to transportation security, and I and the agency look 
forward to working with you.
    Just a little background on New Jersey Transit. We are the 
third-largest transit agency in the Nation. We are also the 
Nation's largest State-wide transportation system. We encompass 
over 5,000 square miles. We provide almost a million trips a 
day. We have 257 bus routes, 12 commuter lines, three light 
rail systems and our paratransit system. We have 166 heavy rail 
stations, 62 light rail stations in this State, and over 19,000 
bus stops.
    Mr. Chairman, the transportation services provided by New 
Jersey Transit are vital to the economic well-being of our 
State and the region. We provide an essential service to the 
nearly 10 percent of all New Jersey commuters who use and 
depend on New Jersey Transit. It is important to note that 
these services reduce traffic congestion by providing commuters 
alternatives to our crowded highways and trans-Hudson 
crossings.
    Mr. Chairman, as you know public transit agencies have 
unique security challenges due to the large numbers of people 
we serve in publicly-accessible facilities traveling on 
predictable schedules. Over and over we have seen carnage 
inflicted by radicalized extremists on innocent people using 
publicly-accessible spaces. Just recently on a public bike path 
in nearby Manhattan and unfortunately mass transit systems 
world-wide continue to be a preferred target of terrorists. Our 
most important priority is keeping our customers and employees 
safe, as we continue to provide essential transportation 
services.
    Safety and security are obviously the top priority for 
everyone in New Jersey Transit and within the transit police 
department. Counterterrorism is this police department's No. 1 
priority, and we take that mission very seriously. New Jersey 
Transit utilizes a risk-based approach to our security efforts.
    In all hazards and threats the police department's 
intelligence section provides the agency with strategic-level 
risk management tools in support of our counterterrorism 
efforts and coordinates intelligence collection analysis and 
production efforts, including reporting and monitoring of 
suspicious activity and individuals. They work cooperatively 
and collaboratively with the FBI offices in Newark, New York 
City, Philadelphia, the U.S. Department of Homeland Security, 
TSA, New Jersey Office of Homeland Security, NYPD, and the 
State Police State Fusion Center.
    Mr. Chairman, Members, almost all of our over 11,000 
employees at New Jersey Transit have received security 
awareness training. From conductors, the bus operators, to 
office staff, our employees are force multipliers, extra eyes 
and ears for the police department. We also work in cooperation 
with the hundreds of businesses located near train stations to 
encourage them to report suspicious activity.
    We also continue to work closely with those first responder 
agencies at the municipal, county, and State levels. To give 
you an example, several times a year we take partner agencies 
to Texas A&M at a DHS center of excellence for incident command 
so we can train together for an event, God forbid, that may 
happen here at home. To date we have trained over 600 New 
Jersey Transit employees from all business lines, not just the 
police, as well as over 500 of our partner agencies, some of 
whom are at this table today. To assure that we are prepared 
and able to respond adequately to a terrorism incident, the 
Office of Emergency Management conducts 5 to 7 exercises every 
year within the State with those partners.
    Our ability to respond quickly and capably has been 
enhanced further because this year we opened an emergency 
operations center. State-of-the-art operations center, which we 
have already used this past summer with Amtrak work out of Penn 
Station New York.
    The EOC provides information and support to incident 
management and coordinates all response and recovery efforts 
when there is an incident. We, as my partners have mentioned, 
also promote our customers to see something and say something. 
We have 800 lines, text tip lines. We also have a new mobile 
app that people can buy tickets and use a digital ticketing, 
and on that app it gives them an opportunity with one press of 
a button to report something into our police department.
    While we don't give out specific deployment information 
about how we deploy our police officers, we use as my partners 
have mentioned many different tools that are seen and some not 
seen to protect our passengers. We have specialized police 
officers who are all fully certified in urban search-and-
rescue. Their skill sets came to bear recently when we had the 
Hoboken train accident in Hoboken, New Jersey.
    We have explosive detection K-9s, which are probably our 
most important deterrence. We are also a test bed for TSA's 
office of requirements and capabilities analysis formerly 
science and technology.
    Mr. Chairman, Members of the subcommittee, every one of 
these efforts that I have spoken of requires resources. We 
simply could not carry out our mission without the help and 
support of Congress and the Department of Homeland Security. We 
believe that increased Federal investment in public 
transportation security by Congress and DHS is critical to that 
effort.
    New Jersey Transit has made great strides in transit 
security improvements in the recent years, but much more needs 
to be done. So we are very grateful for the interest and focus 
of this committee and the subcommittee and very grateful to 
Representative Coleman for her efforts. They are not only most 
welcome, they are essential.
    We look forward to building on our cooperative working 
relationship with the Department of Homeland Security and 
Congress to further these needs. On behalf of New Jersey 
Transit and the New Jersey Transit Police Department I again 
thank you and the committee for allowing us to submit testimony 
on these critical issues.
    [The prepared statement of Mr. Trucillo follows:]
               Prepared Statement of Christopher Trucillo
                           November 28, 2017
    Good morning Mr. Chairman and Members of the subcommittee, I 
welcome this opportunity to appear before you today to discuss the 
challenges of securing passengers utilizing surface transportation in 
New Jersey, New York, and the region.
    Before joining New Jersey Transit in July 2010 as the chief of 
police for the New Jersey Transit Police Department, I served for 5 
years as the chief of department for the Port Authority of New York and 
New Jersey Police Department. During my 23-year career with the Port 
Authority I served as the commanding officer of internal affairs and 
special investigations, the commanding officer of the Port Authority 
bus terminal in Midtown Manhattan, as well as the commanding officer of 
Newark Liberty International Airport.
    Mr. Chairman, thank you for inviting me to testify at this hearing, 
``Securing Public Areas of Transportation Systems: Stakeholder 
Perspectives.'' We appreciate the important role of this committee in 
matters relating to transportation security, and we look forward to 
working with you on these issues.
                            about nj transit
    NJ TRANSIT is the third-largest transit system in the country and 
also the Nation's largest State-wide public transportation system 
serving an area encompassing 5,325 square miles. We provide more than 
915,000 weekday trips on 257 bus routes, three light rail lines, 12 
commuter rail lines, and through Access Link, our paratransit service. 
We serve 166 rail stations, 62 light rail stations and more than 19,000 
bus stops linking major points in New Jersey, New York, and 
Philadelphia.
    Mr. Chairman, the transportation services provided by NJ TRANSIT 
are vital to the economic well-being of our State and the region. We 
provide an essential service to the nearly 10 percent of all New Jersey 
commuters who use and depend on the NJ TRANSIT system. It's important 
to note that these services reduce traffic congestion by providing 
commuters with alternatives to our crowded highways and trans-Hudson 
crossings.
                                overview
    Mr. Chairman, as you know, public transit agencies have unique 
security challenges due to the large numbers of people we serve in 
publicly-accessible facilities, traveling on advertised predictable 
schedules.
    Over and over, we have seen carnage inflicted by radicalized 
extremists on innocent people using the most publicly accessible of 
spaces, just recently on a public bike path in nearby Manhattan. 
Unfortunately, mass transit systems world-wide continue to be preferred 
targets of terrorists.
    Our most important priority is keeping our customers and employees 
safe as we continue to provide our essential transportation services. 
Safety and security are the top priority for all of NJ TRANSIT and 
within the New Jersey Transit Police Department--counterterrorism is 
our primary mission, and we take that mission very seriously.
    NJ TRANSIT utilizes a risk-based approach to maximizing our 
security efforts to protect our trains, buses, light rail vehicles, and 
stations from all hazards and threats. The Police Department's 
Intelligence Section provides the agency with strategic-level risk 
management tools in support of our counterterrorism efforts and 
coordinates intelligence collection, analysis, and production efforts, 
including the reporting and monitoring of suspicious activity and 
individuals, with the FBI's Newark, New York City, and Philadelphia 
Joint Terrorism Task Forces, the U.S. Department of Homeland Security 
and the TSA, the New Jersey Office of Homeland Security and 
Preparedness, the NYPD, the New Jersey State fusion center and other 
partners.
    Almost all of our 11,000 employees have received security awareness 
training. From conductors to bus operators to office staff, our 
employees are ``force multipliers''--extra eyes and ears for our 
police. We also work in cooperation with the thousands of businesses 
located near train stations to report suspicious activity.
    In addition, we continue to work closely with first responding 
agencies at the municipal, county, and State levels. To give you just 
an example, several times per year members of New Jersey Transit's 
police, operations, and administrative staff partner with local police, 
fire, and EMS agencies in Incident Command Training at Texas A&M 
University. To date, more than 600 transit employees and over 500 of 
our partners have participated in these joint exercises.
    To ensure that we are prepared for and are able to respond 
adequately to a terrorism incident, the NJTPD Office of Emergency 
Management conducts regular drills and exercises that ensures that our 
response to terrorism incidents is both effective and well-coordinated 
with our local, State, regional, and Federal partners.
    Our ability to respond quickly and capably has been further 
enhanced with the opening earlier this year of a new, state-of-the-art 
Emergency Operations Center, which is a critical tool that allows 
effective, efficient, and economical management of any event in one 
central location that could (or does) impact transit operations. The 
EOC provides information and support to incident management and 
response/recovery coordination activities.
    NJ TRANSIT also promotes a campaign urging customers who see 
suspicious activity or unattended packages at stations, aboard trains 
or buses, or near transit facilities to call the NJ TRANSIT security 
hotline at 1-888-TIPS-NJT, text us at NJTPD, or notify a New Jersey 
Transit Police officer.
    The NJ TRANSIT mobile app for smartphones includes convenient one-
touch access to call or text the New Jersey Transit Police Department 
directly. So, not only can customers purchase digital tickets by using 
the app, they can also easily say something if they see something. All 
calls are investigated, and all information is confidential.
    Mr. Chairman, while we do not release details about police 
deployments or specific countermeasures, our uniformed police patrol 
officers remain vigilant in monitoring our system. I am pleased to say 
we recently graduated 25 new officers (who happened to attend the 
nearby Mercer County Police Academy, which I'm sure Representative 
Coleman is familiar with), and we have another class of 16 recruits 
which will graduate from the Essex County Police Academy on December 14 
of this year. Our uniformed officers are supported by plain clothes 
detectives and anti-crime officers throughout the NJ TRANSIT system.
    Our Special Operations Division provides enhanced capabilities to 
protect and respond to terrorism on our system. Random baggage 
screening performed by our Emergency Services Units provides us with 
the capability to detect and respond to incidents involving chemical, 
biological, radiological, and explosive materials. ESU along with our 
Train Patrol Units and Conditions Tactical Unit also provide a 
specialized tactical response capability with unique training and 
capabilities specific to the mass transit environment.
    Our canine unit officers along with their explosive detection dogs 
perform perhaps some of our most important functions. These officers 
along with their canine partners do not just detect explosives 
throughout the NJ TRANSIT system but their presence provides an 
effective visible deterrent against our adversaries.
    Every member of the department is equipped with radiation pagers 
and we have tripled the number of officers trained in the use of long 
guns. We continue to work closely with the TSA's Office of Science and 
Technology to test the next generation of technology that will be 
utilized to secure surface transit.
                               conclusion
    Mr. Chairman and Members of the subcommittee, every one of these 
efforts that I have spoken of requires resources. We simply could not 
carry out our mission without the help and support of Congress and the 
Department of Homeland Security.
    Mr. Chairman, in light of our Nation's heightened security needs; 
we believe that increased Federal investment in public transportation 
security by Congress and DHS is critical. NJ TRANSIT has made great 
strides in transit security improvements in recent years, but much more 
needs to be done. So we are very grateful for the interest and focus of 
the committee and the subcommittee, and very grateful to Representative 
Coleman for her efforts. They are not only welcome--they are essential.
    We look forward to building on our cooperative working relationship 
with the Department of Homeland Security and Congress to further 
address these needs. On behalf of NJ TRANSIT and the New Jersey Transit 
Police Department, I again thank you and the committee for allowing us 
to submit testimony on these critical issues, and look forward to 
working with you on safety and security issues.

    Mr. Katko. Thank you, Mr. Trucillo, for your testimony, and 
I appreciate you being here, as well. The normal protocol at 
this time is for the Chair of the subcommittee to start with 
questioning, but given the fact that Mrs. Watson Coleman and 
myself work in such a fine and bipartisan manner, and given the 
fact this this is the home turf, I am going to give her the 
honor of going first with questions. Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. First of all, 
thanks, each and every one of you for your testimony. I did 
read your testimony, and I am very impressed with the kind of 
robust and comprehensive training that the people that work for 
you have, not only those on the front lines, but even some of 
those who were in support capacities. It does make us feel 
better that these issues are being addressed.
    I have a couple of general questions. One question, I don't 
know if you have had the opportunity to travel into other 
countries and to see what sort of security measures or 
technologies they employ in Europe and other places that would 
be very helpful to us here and very helpful to you that you 
don't have access to now. So I am wondering if you could just 
quickly share with me some of those things that you have 
observed if you have, and I will start----
    Mr. Cunningham. Yes, I don't mind answering that question 
myself, also. I traveled extensively with the FBI and what I 
noticed in most of the European, as well as Asian is that there 
is a presence on the platforms absolutely. In Europe it is 
mostly an armed presence with K-9s actively walking and 
patrolling the entire length. It is not just one. It is 
multiple, and they have teams. That is the biggest that I have 
seen.
    The other thing is, is that they also have a propensity for 
cameras, and I just know that--and assuming this position that 
I have now, the cost of maintaining them is also a 
consideration, and that is what sort-of happens. If you employ 
cameras from 2003, 2005 they are pretty much outdated and now, 
you know, are needed to be revamped, and so it is a big cost, 
but that is what I have noticed internationally is the presence 
on the platforms, and it is manpower. It is putting them out 
there, and meanwhile doing the other things that you have to 
do.
    Mr. Nestel. I think that if you go anywhere outside of the 
country you see a very robust camera network. We would love to 
have that. That doesn't exist for most transit agencies, I 
think, in the United States right now.
    They also have things that you don't see, and those are 
chemical detection systems on trains and on platforms and also 
scanners, weapon scanners. All of that technology is being used 
elsewhere and is not as prevalent here in the United States.
    Mr. Lemanowicz. In many ways our operations are there to 
support the different sectors, so in terms of us looking at a 
transportation sector we come in as a deployment model as a 
strike team to support the on-site, but the cameras would be a 
big piece, and when we are there we are bolstering that effect 
of having resources on scene, but when we are not, again, they 
are at their minimums that they are able to sustain.
    I would also recommend that digital technology is 
continually on the rise, and it is not just--if we can put 
members out on the platforms or in terminals and things like 
that, but it is the accountability of our members, so from a 
management side, so when you have a critical incident, a 
catastrophic incident, that you know real-time where your 
people are and because of the radio traffic just gets 
overwhelmed.
    So we are--in many ways we have come, we have improved 
since 9/11 with our communications, but in many ways we haven't 
made it to that point, and there are some simple systems out 
there that other countries are using, and it is not being Big 
Brother and where is my personnel, it is more of when something 
happens how do we quickly get them and communicate to them what 
is going on? Then you have a real-time two-way feedback of that 
situation.
    Mr. Trucillo. I have had the opportunity while at the port 
authority to travel to London and to Israel to see how they 
handle security. In London the big difference that I noticed 
was the camera system that my colleagues mentioned, very 
robust, very coordinated, all the disparate systems no matter 
where they are are tied in, so it literally is one system, and 
operationally it was very good.
    In Israel it is the mindset that everyone understands how 
important security is to their nation, and that I took back 
with me and that is why I mentioned earlier counterterrorism is 
the No. 1 mission of every New Jersey Transit police officer. 
They have to know that, not because I say it but because they 
are trained to that, and our training reflects that.
    The other thing that I noticed in Israel, again, was the 
randomness of the way they do their patrols. The difficult 
thing we deal with in mass transit is not having the people to 
necessarily cover everywhere we have risk, and none of us can 
afford, nor do I believe as a Nation we can afford to put a 
police officer everywhere.
    But we should be able to in a random way have someone who 
is preoperatively looking at a target, have a risk that a 
police officer is going to be there, that they should not be 
able to observe a target for a week and never have seen a 
police officer at that location because that is a very bad 
message to send to an adversary, that this is a very easy 
target. So I believe that was what I picked up from being 
overseas.
    Mrs. Watson Coleman. So it seems to me that both additional 
personnel, so that there is a robust presence, obviously K-9s 
that can detect explosives and gases and things of that nature, 
and so my question is, have you had a chance to review the 
sort-of proposed budget and have any idea how it would impact 
what you think you need as opposed to what you would be getting 
in any of those categories? For instance, the budget proposes 
just reducing VIPR teams to 8 teams.
    It doesn't even propose necessarily the kind of support to 
the surface transportation facilities. The grants that would 
help you to hire people and I guess get other things has gone 
from $88 million proposed to $48 million. I am going to 
introduce a bill today that--you know, I am hoping that Mr. 
Katko gets a chance to look at and find areas in which he can 
support because both of us are very interested in ensuring as 
well as Mr. Fitzpatrick.
    It is very important to us that these surface 
transportation facilities, the infrastructures and operations 
are given the kind of attention that TSA doesn't seem to be 
giving them now and that the resources don't seem to be bearing 
out.
    Mr. Trucillo. If I may, I can mention it very directly in 
two specific areas in terms of the decrease in the transit 
security grant program. You heard me talk about the training we 
do, and this training is critical. The drills, the exercises, 
you know, there is a saying that my colleagues and I all know. 
You don't want there to be a major event, all show up, and that 
is the first time you are seeing folks.
    You need to have these relationships, get this 
collaborative working knowledge before you ever get to that 
scene, and through the drills and exercises that we are able to 
do, and the only way we do it is through the transit security 
grant program where we train together. We travel to a 
specialized facility to train together. These relationships are 
incredible.
    I am going to go back just for a quick moment to that 
Hoboken train accident. We had over 350 people on this train 
when it crashed into Hoboken. They were all extricated from 
that train, evacuated from that train in a half-hour. There 
were 107 injuries in that incident. They were all triaged and 
transported to hospitals in under 1 hour.
    In emergency management that is a remarkable job. That 
happened because everybody who responded to that scene has 
worked together before, has drilled together before.
    The second item that would be critical and we would not be 
able to do what we do now if we lost the grant program my 
colleague from SEPTA mentioned it earlier special events. For 
instance, transit we have a train station within 100 yards of a 
football stadium. We have 16 football games every Sunday. NFL, 
AFL, every Sunday there is a game, and we have trains that go 
out to that stadium that we have to protect. We have concerts, 
festivals, fairs. They are all targets of opportunity. They are 
all where large crowds gather. Without the ability to put 
officers as a deterrent at these events, we are vulnerable, and 
those are two specific ways that a decrease in that grant 
program is going to have a tangible impact.
    Mrs. Watson Coleman. I guess one question I have is to what 
extent do you rely upon the local police to participate in 
whatever needs you have in securing your surface facilities at 
events, at special events or just, you know, under normal 
circumstances because that particular program is slated for 
elimination, and we think that that is particularly 
problematic? Anyone.
    Mr. Nestel. I think that police departments and local 
jurisdictions are already stretched thin and have way too many 
responsibilities, which is why we ended up being formed in the 
first place. They can't assume the responsibilities that we are 
responsible for.
    The gaps that exist because of the grant funding decrease 
from nearly $200 million to $80 million is very painful for the 
transit agencies. We have a significant K-9 explosive detection 
function, and, Congresswoman, if a bag is left unattended, if 
we don't get to that bag quickly we have to stop the system. 
This happens every day. So we have multiple K-9 units 
throughout our system that can respond within minutes to clear 
that bag to make sure that it is not a threat.
    For us at SEPTA we have a special operations response team, 
which is basically a SWAT and rescue team that was funded 
through the transit grant program. We are not getting those 
funds now. So it has a dramatic effect on those specialized 
functions that are so important to transit right now.
    Mrs. Watson Coleman. Thank you. I will yield back at the 
moment. I hope we have another round.
    Mr. Katko. We will be happy to do so, Mrs. Watson Coleman. 
Thank you very much, and thank all of you gentlemen for being 
here today, as I said earlier.
    As I was sitting here I was thinking you have 12\1/2\ times 
the number of passengers that travel on the airlines every 
year, and not only do you have the safety and prevention aspect 
you also have a law enforcement aspect that they don't have to 
deal with at airports very much, that is the unruly passenger, 
the unruly crowds at Eagles games, things like that.
    So you really are wearing more than one hat, and I really 
commend you for the job you are doing. It is quite remarkable, 
given the target of opportunity that daily presents itself in 
your realm that you have kept people as safe as you have, and 
our Nation really owes you all a debt of gratitude and all your 
colleagues, so I want to thank you for all you do to keep 
people safe every day.
    One thing I learned when I was a Federal organized crime 
prosecutor is that task forces are critical. Task forces at 
Federal, State, and local law enforcement are the force 
multiplier you need to really draw on the expertise and the 
manpower issues to get the job done. So it is really heartening 
to hear how well that concept works and it seems like necessity 
is the mother of invention, and everyone knows you want to keep 
people safe, so it is a lot easier to get them to work together 
under those circumstances, but that is really very important.
    One thing that I was concerned with in my days as a 
prosecutor was the interoperability issue with radios, as well. 
We had a lot of those concerns, and I heard that from I think 
it was you Mr. Nestel or----
    Mr. Nestel. Yes, sir.
    Mr. Katko. I would like to hear a little more about that 
and how we can help fix that because to me that should be an 
easy fix, and it is frustrating at times to me that when, you 
know, not all law enforcement agencies were on the same 
frequencies, and it is just maddening that we can't fix 
something as easy as that, so I would like to hear something we 
can do to fix that first of all.
    Mr. Nestel. Look, Congressman, the technology is there. It 
is expensive. Once it is expensive it is getting over the 
hurdles of jurisdictional acceptance. When a different 
jurisdiction is speaking on your radio band, it is the 
different languages, it is the control of those conversations. 
It is access to information. You know, there is always a 
concern when your radio communication is being monitored by 
others that you don't know.
    So there are obvious hurdles that have to be crossed before 
we can have that ability to communicate. During an emergency we 
have interoperability where we can plug in from SEPTA 
headquarters, we can plug in all the local jurisdictions on to 
one band to handle that emergency. It exists. We have it.
    This is the normal day-to-day communication. You know, a 
suspicious person in a track area between Warminster and 
Hatboro in Bucks County, would warrant communication with that 
jurisdiction, and we would have the ability to just switch a 
radio band and the officers responding would then be on the 
band of that jurisdiction, who is also responding. That is a 
huge benefit for us. Huge benefit. So it would be cost and it 
would be logistics of acceptance.
    Mr. Katko. OK. Thank you. Anybody else want to add to that?
    Mr. Lemanowicz. There is a, it is called Statecom, which 
most of all our agencies across the State, as well as all local 
municipal county resources can all jump on.
    We are in a process right now in trying to identify certain 
channels and right now so like a target-hardening channel where 
it is made up of different agencies, and they are going around 
with VIPR teams and other groups in an overt and covert 
capacities in a prevention and protection-based model; not 
response, prevention and protection.
    So that is the collaboration part, but how do we talk? It 
is through these group channels. It is not taking ownership of 
another agency's primary, it is just giving an opportunity that 
they can quickly click over to this channel and speak.
    So in terms of a special event, the Papal 2 years ago, we 
operate off of Statecom, Super Bowl, Statecom all these 
different special events. Now we think of a significant 
incident, you think about the Seaside and the bombings in New 
York, we were able to now move to a Statecom channel to now 
collaborate all resources on to that.
    So now it is a point of education and training and 
exercising and you get everybody to get comfortable in using 
it, but like you said, it does exist.
    Mr. Nestel. Congressman, one----
    Mr. Katko. Sure.
    Mr. Nestel. One follow-up. Manufacturer, there are several 
manufacturers of radios and what we have seen is that when we 
try to integrate those systems using different manufacturers 
there is often another hurdle that comes up that there is a 
concern that there will be communication interference or not a 
smooth transition using different manufacturers. I am not a 
communications expert. I don't know if that is a realistic 
concern, but I know that it is an organizational concern.
    Mr. Katko. OK. OK. Now I am going to briefly touch on K-9s. 
It is amazing in this era of modern technology, which I will 
get to in a moment, that people often get back to saying K-9s 
are one of the most effective methods and tools we have in our 
arsenal, and it is also amazing to me how little they are 
really utilized. So does anyone want to kind-of share some 
opinions as to why that is, that K-9s aren't more readily used?
    Mr. Trucillo. I won't speak to why they are not used. I 
will reaffirm what you mentioned, Congressman, about how 
important they are. I believe that it is probably the single 
best deterrent that we could have.
    Mr. Katko. We hear that all the time in the airport realm, 
as well, isn't that amazing?
    Mr. Trucillo. You asked me what we can do to protect--the 
singular thing we can do to protect mass transit I would say 
put a K-9 and a trained partner in every train station, and I 
don't think you would have a better deterrent than that.
    Mr. Katko. OK. Anybody else?
    Mr. Cunningham. We have used the K-9 dogs when we shut down 
the bridge or we have a race that is being run like Loch Run or 
one of the other ones we searched 7,000 bike riders' bags with 
those dogs and were able to get them down to the shore before 
they arrived. I mean 7,000 bags, so irreplaceable.
    Mr. Katko. OK.
    Mr. Nestel. I think that it cuts the needs for staffing 
because ordinarily you would have a two-officer team. That dog 
serves as a partner. It also serves multiple functions. It is 
not just an explosives detection, it is tracking of escaping 
persons. It is community relations. The dog has multiple 
functions, and the dog is much cheaper than electronic 
technology. It does the same thing.
    Mr. Katko. OK.
    Mr. Lemanowicz. Captain Scott Poulton in the audience. He 
was pretty much one of the supervisors in building this task 
force, this detection render safe task force for the K-9s 
State-wide capability in recalling in a preventative or in a 
response function for a special event or incident. But as 
everybody here at the table has said, they are a phenomenal 
resource, and many times it might just be seen that they are 
scent tracking a--you know, trying to find a suspicious item, 
but many times we start to think about the tactics that they 
are using overseas now it is not just an article of an item, it 
is an individual, it is a vehicle, and what we are finding now 
is we have to adapt, and that is going to require funding and 
training and exercise to now adapt to our threat, and that is a 
moving vehicle, that is a moving individual.
    We don't have air--you know scent trackers that are moving 
with an individual. They come on to an article or an item and 
they scent it, but in terms of a moving subject our K-9s across 
the State at a local, county, and State, Federal level they 
still need that extra training so that is a huge piece for our 
future in combatting any type of terrorist.
    Mr. Katko. Yes, sir.
    Mr. Cunningham. Three words; funding, training, exercising, 
essential.
    Mr. Katko. The fourth word is savings, right, in some 
respects in compared to technology you are going to try, that 
may not work. Let's get to the technology a little bit. I am 
constantly frustrated, I think I might share this sentiment to 
my colleagues, when I note that Homeland Security is not the 
best at procurement, and it is not the best at getting 
technology to the front lines, and I will give you an example. 
We are at an airport in Amsterdam where they have American-made 
technology 3D scanners that are being implemented now. Now. 
Now. They are on the front line. They are working now. They are 
using them now. The Homeland Security Agency wants to study 
them until 2019, and hopefully get them on-line by 2019.
    In the meanwhile the technology is probably going to 
advance because the bad guys are always advancing, and we know 
that what it takes to bring down an airplane is getting a 
smaller and smaller device. So with that being said, is there 
any one thing that we can get Homeland Security to do to get--
help you get the technology to the front lines quickly other 
than money? Is there something in the process that is flawed 
that needs to be addressed or adjusted that we are missing 
because we are constantly on them, but it just seems to me that 
they can't get that process going in a timely manner.
    I mean, Mrs. Watson Coleman and I were at a refugee camp on 
the border with Syria, and each refugee got $28 a month. They 
never got the $28 a month, but they had a $28 voucher, and they 
would go into like this collective grocery store, 85,000 people 
on the Syrian border in the middle of the desert in the middle 
of nowhere they used American iris scan technology to detect 
who was using the money and how much was left in their account, 
and we don't even use that at airports today.
    So with that being said, anyone want to share any thoughts 
on that?
    Mr. Cunningham. I have one thing. We have 732 cameras on 
either the PATCO line or on the bridges. Integration, they are 
not integrated. What is the sense of having those cameras? Who 
can monitor that many? The ability, the analytics is--the 
capability is there, but the integrative factor of intrusion 
detection and alarm systems and the cameras themselves is 
essential, and so that is something that I am looking forward 
to trying to hoping the grant program, and that is why I 
brought Mr. Shanahan along with me----
    Mr. Katko. The grant man.
    Mr. Cunningham [continuing]. To just force the situation 
that funding is essential and integration is essential, and I 
know that Tommy Nestel, this is a key thing for all of us on a 
regional level.
    Mr. Katko. Gotcha.
    Mr. Nestel. Congressman, I don't think anybody at this 
table is going to say that technology isn't one of the biggest 
pieces for securing mass transit, it truly is. I don't know 
where Homeland Security is testing it, but I will tell you I 
will push my peers out of the way and volunteer that it be on 
SEPTA.
    We all need this technology. It is expensive. None of us 
can afford it. We look forward to the time where the tested 
opportunity becomes a reality, but it just doesn't seem to 
happen for us.
    You know, each one of these agencies spends its own dollars 
to move forward with technology now rather than wait until, you 
know, that 5, that 10 years later when it is going to be at the 
point where we really need it because in 5 or 10 years it is 
going to change.
    Mr. Katko. Right. The TSA does the innovation lanes in our 
airports, but I don't know if they do much in the way of 
innovation with respect to service transportation, that is 
perhaps what I am going to get them to go with, but the bottom 
line is when the ideas are there and it takes so long to get 
them implemented because of their internal processes that is 
very frustrating for us.
    Mr. Trucillo. Mr. Chairman, as I mentioned in my opening 
remarks, New Jersey Transit, we volunteered to be a test bed 
for science and technology, the division within TSA.
    We have been working hard with them, testing things like 
chem biodetection undercarriage screening. For instance, when 
we had to safeguard rail cars for the Super Bowl it was bomb 
detection, and we can get in the car and we can visually see 
the exterior of the car, but we were worried about the 
undercarriage. So they developed an undercarriage screening 
that at speed could read the underside of the rail car and give 
us a level of comfort before we sent that car within the secure 
perimeter to the State police.
    So they are making some strides, but it is frustrating 
because those strides are coming very, very slow. I am not a 
science guy, but I believe technology has got to be the answer, 
but unfortunately, that technology is apparently not here yet.
    Mr. Katko. Yes. The problem is a lot of times it is here, 
it is just not getting implemented in a timely manner. Well, do 
you have anything to offer?
    Mr. Lemanowicz. In making the transition in my career from 
urban search-and-rescue to special operations, and as a former 
special operations operator, and now as an operations officer 
and coordinator, the main thing is to go by the KISS method, 
and keep it simple; and for me, keep it simple, stupid. So all 
of our personnel are being tasked probably more than they can. 
Do more with less. For us to try to keep up with technology and 
deploy it the way we would envision it where the we see in the 
movies and it is not practical.
    But in terms of going back to communications, so, and not 
talking prevention-based but talking about a response incident, 
they are on the rails, they are in some type of terminals, and 
they are now the immediate actors, you know, counter-assault 
personnel. They are trying to deal with a threat. How do you 
bring in the resources that are needed? We have actors now that 
are calling in SWAT incidents SWATing incidents to see how we 
respond to make, you know, to now try to--how can we counter 
their capabilities?
    So it is very important for us to look at it in terms of 
making it very clear across all channels of the communication 
aspects of radio, but how could we use digital technology to 
make it very simple in terms of what is happening right now and 
then when you have additional resources coming in how can you 
provide a GIS layout of what the area of operation it is to 
make it very simplified to immediate point of contact? Very 
simple things. From there these men and women are trained in 
their tactics, and they can handle it.
    Mr. Katko. Thank you very much. I went well over my time, 
so I won't ask any questions in the second round, but, Mr. 
Fitzpatrick, the floor is yours sir.
    Mr. Fitzpatrick. Thank you, Mr. Chairman. Welcome to our 
region. To the Ranking Member, thanks for hosting us in your 
district and thank you all of you for being here. No. 1, thank 
you for what you do. I know it is not easy. It is a very, very 
significant responsibility under difficult circumstances, so I 
want to thank you for that and also thank you for testifying 
today because the recommendations that you share with us are 
very, very important. They become part of the Congressional 
Record for one, and second, we really do take these 
recommendations back to our committee, back to the floor of the 
House and they do in some form or fashion influence the final 
product, which is relevant to keeping everybody safe here in 
this country.
    I want to touch on two issues. No. 1 is interagency 
cooperation. I formally was Mr. Cunningham's colleague in the 
bureau, and I know he can attest to the importance of task 
forces and the role that they play, and it is not just State-
to-State, Federal-to-Federal, but it is Federal-to-State. I can 
tell you that in the area of Safe Streets task forces, bank 
robbery task forces, JTTFs the synergy that was developed not 
only the camaraderie and the relationships but everybody bought 
something unique to the table. Every single agency on different 
levels had something unique to offer to those investigations, 
and when we talk about force multipliers I think that plays 
into that.
    Technology is important. K-9s are important. We talk about 
the force multiplier aspects. I think task forces are really 
important, which gets to my question. For task forces to work 
the relationships have to be good. We all know, and this isn't 
unique to law enforcement, it exists in all sorts of 
organizations, but often times there can be competitive 
jurisdictional battles, sometimes battles over funding that can 
hold back the success of task forces.
    So my first question is: What can you share about what is 
working and what is not working in respective areas that you 
work with the task forces on both the State and Federal level?
    The second is when it comes to the budget often times it is 
an issue of prioritization, and a lot of times those edicts 
come from the top of the Executive branch, and they may or may 
not be consistent with what you all are seeing based on you 
having your ears and eyes to the ground, knowing the threats on 
a more intricate basis than maybe the people that are at the 
top making the decisions and issuing the priorities that impact 
your funding and where it is going and what you can and can't 
do in keeping us safe.
    So if we can just address those two issues, the task force 
and sort-of the relationship aspect to it, and second, on is 
there any disconnect between the priorities that sometimes are 
issued on high that affects the priority of where your funding 
streams are going and whether there is a disconnect between 
what you really need?
    Mr. Cunningham. Well, first, the task force for us kind-of 
thing is our working group. For Tom Nestel and myself the DART 
team, we also have New Jersey Transit, and part of--is part of 
our group, the regional group, that works tremendously well. I 
will say one thing, though I found out that we had funding for 
two analysts who were working at the DVIC and providing transit 
transportation surface work as well, you know, processes and 
intelligence threats they were working on. That grant is 
running out, so we are not going to be able to fund it anymore, 
so those two analysts that were working and doing some things 
for us are now not going to be there.
    We spoke to the people at the DVIC and the commanding 
officer there, and they are going to try to pick up that, but, 
again, there is a gap that causes there. Working together and 
cooperatively is fantastic as far as as I see, and the openness 
is there. It is what do we need, and we get back to the same 
thing. It is funding and direct, you know directed patrol 
funding, it is money to put systems in. It is the integrated. 
It is to make us better, you know, jointly, and that seems to 
be what is lacking, mainly the funding.
    The camaraderie, the ability or the willingness is there. 
It is no longer a divided field, if you will. If I need 
something from the New Jersey State Police I feel very 
comfortable that I can go there and get whatever it is that we 
need, intelligence-wise or whatever. So I will open it to Tom.
    Mr. Nestel. I am going piggyback on exactly what you said, 
Congressman, and that was the value of task forces is beyond 
just the investigative function that they are serving is the 
development of the people that you assign to that task force is 
huge. The personal relationships that they develop in that 
Federal organization, State organization, local organization. 
The added resource. I know that I can call the detective on the 
Joint Terrorism Task Force on the FBI Violent Crime Task Force, 
on the DEA Task Force, I can call any of those detectives and 
immediately get resources from those organizations because of 
our participation and because of the relationships that are 
built.
    When it comes to the transit group, this transit group, we 
have a phenomenal relationship, and, you know, it might be a 
case in other places where there is sparring over grant funds, 
that doesn't occur with our group. There is great collaborative 
effort when it comes to the grant funding and the group 
efforts, but Charlie hit the nail on the head. Somewhere above 
our group one of the most important parts of preventing 
terrorism is the intelligence element. You know, if we are 
relying on that cop on a platform to stop it, then a lot of 
things have failed to get to that point. We no longer will have 
an analyst after January, and that was funded by grant funding 
that we all agreed on, and it is gone.
    Mr. Lemanowicz. The concept of the task force is what gets 
the job done. I have seen it with the USAR task forces. I was 
involved with that for 7 years. When a local or a county entity 
needed a good resource--they call it the USAR task force in the 
State. It is usually Task Force 1.
    Now in terms of operations we have a bomb task force, we 
have a K-9 task force. You want the job done, you call the task 
force. Now we are in the process of the last year of building 
it is not called a task force yet, but we are essentially a 
planning task force that has built up at the ROC where you have 
all these entities and all these different agencies and offices 
coming together, sharing intelligence, and trying to develop a 
strategy to combat terrorism.
    In itself it is a planning task force, and then that is 
what now gets put into the operational theater of how can we 
through operations prevent and detect and deter.
    Mr. Trucillo. I think in terms of the task forces I agree 
with Charles in the south it is very good, and you heard the 
chiefs talk about it.
    In the north the regional chief's task force with the 
transit part, NYPD Transit, New Jersey Transit, Amtrak, Port 
Authority, the MTA, I have been in this business for a long 
time, and I have been in the transit business for a long time, 
and I remember when TSA was stood up.
    Those were difficult times. That was a head-butting time I 
gotta tell you. Thankfully we are beyond that, I believe. We 
are working together and cooperatively. That is the good news.
    To your first point, Congressman, about the prioritization, 
I am very worried about that because transit agencies are not 
well-heeled. We all know the economic troubles that all transit 
agencies have. When you are trying to move people, your top 
priority every day, things will fall by the wayside, but my 
colleagues and I, our job is safety and security of those 
people who are using the buses and the rails.
    We can't necessarily look at the budget and say, well, we 
are not going to put somebody there because we can't afford to 
put somebody there. If the situation and the intelligence 
dictates that somebody needs to be there, they need to be 
there. The grant funding gives us that ability to put that 
officer there. Without that grant funding we are putting people 
in harm's way, I believe.
    Mr. Fitzpatrick. So beyond, and I think everybody not just 
on this panel, but in the room probably agrees that funding is 
the priority. Beyond that what is it, and this is a tough 
question, I acknowledge that, but beyond the funding 
constraints what is it that is frustrating when you are out 
doing your job every day, what is it that is holding you back? 
What is the causes of frustration beyond the resource issue?
    Mr. Trucillo. I think from my perspective, and you touched 
on it earlier, we all deal with other issues. In transportation 
facilities we see a very high level of homelessness, drug 
addiction, mental issues, and we cannot say that our primary 
mission is counterterrorism, therefore, we are not going to 
deal with these issues. We have to deal with those issues. When 
we are dealing with those issues as best we can, we are being 
taken away from that primary mission.
    So that is frustrating that in certain cases there aren't 
the services available to treat those with addiction, with 
homelessness issues. The mental health issue is probably the 
biggest problematic issue. People that come back day after day 
after day that you can't seem to move away from the transit 
facility to get them the help that they need. So that is my 
biggest frustration.
    Mr. Nestel. I am jumping right on that. Homelessness, 
poverty, and the opioid crisis are what takes up all of our 
time during the course of the day and redirects our efforts 
from crime control and terrorism prevention. Those social ills 
are absolutely the things that are most frustrating for us.
    Mr. Cunningham. Just to change the tone of that for us and 
for transit that is traveling again it is jurisdiction, it is 
the ability to smoothly transition from location to location. 
Our officers cover in Pennsylvania and New Jersey. I think that 
is a factor that weighs on this kind of thing. We don't have 
necessarily the kind of issues that they were mentioning there, 
but one of the things that needs to get out is that--and I 
think Mr. Nestel said it about what happens in Israel, 
everybody feels like they are part of the solution, that they 
are all contributing no matter they are a store clerk or, you 
know, working as a police officer or a military person. They 
all have the same goal.
    We try to put that out through our PSA kind of information, 
but if it came from like a National kind of method, as well, 
like to foster that attitude that because when I ride the 
train, too, even though we want them to look up and speak up 
and we want them to see something, say something, nobody is 
looking up. They are looking at their phones. The message has 
to be somehow we get it to them through that system or, but we 
have got to get them to communicate, too.
    Mr. Fitzpatrick. Well, I want to thank you all for sharing 
that, and I think it is a reminder to us up here that issues we 
deal with outside of the Homeland Security Committee are very 
relevant to what we deal with in the Homeland Security 
Committee.
    Thank you. I yield back.
    Mr. Katko. Thank you very much, and I happen to chair the 
Mental Health Task Force, and I think you will probably--I am 
not sure you even know this, what is the No. 2 cause of death 
for people 24 and younger? Suicide. Number 10 cause of death 
for all Americans is suicide, and for every suicide attempt 
there is about 22--every suicide there is about 22 attempts, 
and you think about the cost to society and how little is being 
spent on mental health in this country and the crisis that it 
is. It far outstrips the opioid crisis, and look at what that 
is doing to our country.
    So just be shocking to the mind going forward, but Mrs. 
Watson Coleman is going to have the last word here, so Mrs. 
Watson Coleman, you are up.
    Mrs. Watson Coleman. Thank you very much, and thank you Mr. 
Fitzpatrick for coming here and Mr. Katko for holding this 
hearing. This has been very illuminating, and I thank you very 
much, you have been very helpful.
    VIPR teams is something that I don't know because I am a 
dog lover or what but I recognize that they are vitally 
important, and in the piece of legislation that we are 
proposing--that I am proposing today it does include a 
significant increase in those teams somewhere upwards of 200 
dogs in that situation.
    Thank you for raising those sort-of cultural issues that 
also impact your ability to do your job and made me think about 
the budget and what could possibly happen as a result of some 
of the proposals that are taking place, including this tax 
reform proposal and what it might do to those people who are 
homeless, you know, who are addicted and who are impoverished. 
It certainly makes their life a little bit more difficult.
    The last thing is that I just wanted to ask you this 
question, what do you have to say about sharing best practices 
and knowing whatever information exists that can help prepare 
us for things like what happened with that truck that ran into 
those bicyclists? It concerns me because it doesn't take a lot 
of education, it takes no education, obviously it takes no core 
value, it doesn't take any training, it just means that you are 
hell-bent on killing somebody, so these sort-of automobile-
related terrorist attacks weaponizing our cars and our trucks, 
if you have anything that you would like to share that we might 
be thinking about as we move forward and what we need to do. 
That is my only last question other than to thank you. Anybody?
    Mr. Trucillo. I will take a stab at that, and it deals with 
my trip to Israel. This was post-9/11 in 2005 where everyone, 
everyone was aware of the possibility of terrorism. My host 
said to me, ``Chris, I can't believe that in America you are 
not doing more of this.'' I said to him, ``Nicky, as horrible 
as 9/11 was, it would take many more 9/11s for Americans to 
give up their freedoms.'' I think we are torn as a Nation 
between giving up our freedoms and dealing with this specter of 
terrorism that keeps tapping on our shores.
    I think we just as a people need to be more aware. It 
sounds simplistic, but we need to be very aware every day at 
all times of our surroundings, and that sounds very simplistic, 
but unfortunately, I believe that that is where we are in 
society today.
    Mrs. Watson Coleman. Kind-of connected to that National 
message you were talking about, see something, say something. 
Yes, yes. Thank you very much, Mr. Katko. I yield back. Sorry, 
sorry, sorry.
    Mr. Lemanowicz. I am a fan of education, and you have your 
front-line men and women, and many times in terms of what they 
gather through their own experience, however, there is a way of 
changing that mindset from a first responder to a first 
preventer, and that is through education. Not just the 
experience. If we can always chase TTPs the terrorists' 
tactics, techniques, and procedures, and sometimes, you know, 
you have a couple hits the same type of tactic in Rumiyah be 
published in the ISIS magazine and they are pretty much telling 
their people how to put it out, and now you will see it, you 
know, being conducted the same type of tactic in each country, 
including here in the United States.
    It comes down to education. There is a program now CTCs, 
the counterterrorism coordinators. So it is trying to get down 
from a Federal down to a local level and educate them in terms 
of what are the best protective measures, so when you talk 
about a train platform or you talk about a special event, no 
matter what the theater of operational area is they know what 
the best means of, hey, how do I create a strong perimeter?
    A reason why, because of these vehicles, because of these 
suicide bombers, because of what they could potentially bring 
in, and it is that. So that is something again it is 
developing, but it always needs support and that is providing 
education across all from Federal right down to local and using 
these counterterrorism coordinators as that mechanism to branch 
out to the municipalities.
    Mrs. Watson Coleman. Thank you. Thank you.
    Mr. Cunningham. Just one point. I totally agree with what 
the lieutenant said, and terrorism is asymmetrical now, I mean 
very asymmetrical with the advent of domestic terrorism and 
home-grown kind of things.
    So I do believe that that kind of--that it is a constant 
training because the methodologies and the methods that are 
being employed now we have to plan for hotel rooms and 
apartments and parking lots above us to be looking out for 
whether it is going to be an active shooter, if you will, from 
above.
    So everything has to be changed, and we have to adjust on 
the fly. All the officers have to adjust and learn from 
everything else, and it is important the sharing of 
information, best practices things like that is essential to 
our business in the transit and transportation industry.
    Mrs. Watson Coleman. Thank you very much.
    Mr. Katko. Thank you all very much. I want to thank the 
witnesses for their testimony today. It was excellent. It was 
very thought-provoking, and it gives us a lot of things to talk 
about and go back and take a look at what we can do to further 
help you in your mission to keep all of us safe.
    So we want to thank you for that. The Members of the 
committee may have some additional questions for the witnesses, 
and we will ask you to respond to these in writing.
    Pursuant to committee rules the hearing record will be held 
open for 10 days. Before I adjourn I just want to thank, once 
again, my colleagues from the local area here Mr. Fitzpatrick 
and Mrs. Watson Coleman for putting this on and Mrs. Watson 
Coleman in particular for your leadership on this one.
    It is a very important issue. We spent an awful lot of time 
looking at airports and air travel, but this is another huge 
area that we need to make sure we pay attention to. So thank 
you very much, and with that the committee stands adjourned.
    [Whereupon, at 11:35 a.m., the subcommittee was adjourned.]

                                 [all]


</pre></body></html>
